No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

BRAULIO M. CASTILLO,
Petitioner,
v.

COMMONWEALTH OF VIRGINIA,
Respondent.
-------------------------- ♦ --------------------------

ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF VIRGINIA
-------------------------- ♦ --------------------------

PETITION FOR WRIT OF CERTIORARI
-------------------------- ♦ --------------------------

Lauren LeBourgeois
108 N. Alfred St., 2nd Floor
Alexandria, Virginia 22314
(703) 683-7070
emery.laurenk@gmail.com

Joseph King
Counsel of Record
KING, CAMPBELL
& PORETZ PLLC
108 N. Alfred St., 2nd Floor
Alexandria, Virginia 22314
(703) 683-7070
jking@kingcampbell.com

Counsel for Petitioner
Dated: January 4, 2021
THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
QUESTIONS PRESENTED
1. Does the Confrontation Clause allow a non-victim
child witness to testify against his father via twoway closed-circuit television when the witness
cannot see his father and does not know that his
father is on trial for murder?
2. Given that Crawford v. Washington, 541 U.S. 36
(2004), removed the underpinnings of Maryland v.
Craig, 497 U.S. 836 (1990), should Craig be overruled?

ii
STATEMENT OF RELATED CASES
Castillo v. Commonwealth, Record No. 191028,
Virginia Supreme Court. Petition for Appeal denied
February 27, 2020; Petition for Rehearing denied August 5, 2020.
Castillo v. Commonwealth, No. 0140-17-4, Virginia Court of Appeals. Judgment entered June 4,
2019.
Commonwealth v. Castillo, CR26450-00-01-02,
Loudoun County Circuit Court. Judgement entered
December 30, 2016.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
STATEMENT OF RELATED CASES ....................... ii
TABLE OF CONTENTS............................................iii
TABLE OF AUTHORITIES ...................................... vi
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS ............................................... 2
STATEMENT OF THE CASE ................................... 2
REASONS FOR GRANTING THE WRIT ............... 10
I. INTERVENTION BY THIS COURT IS
NECESSARY ................................................. 10
A. Virginia Courts and Other Courts
Around the Nation Are Misapplying
the Narrow Holding of Maryland v.
Craig in Reliance on Unconstitutional Statutes .......................................... 10
1. Virginia Code § 18.2-67.9 unconstitutionally broadens the scope of
Craig v. Maryland ............................... 10
2. Other States Are Misapplying the
Law ...................................................... 14

iv
B. Allowing a Child Witness to Testify
via Two-Way CCTV in His Father’s
Murder Trial When the Child Cannot
See His Father Who He Does Not
Know is on Trial for Murder Violates
the Confrontation Clause ......................... 21
C. Conflict Amongst the States Regarding the Scope of Craig and Need for
This Court to Address Whether Craig
Survives Crawford .................................... 23

1. Conflict Among the States Regarding the Scope of Craig .................. 23
2. Need for This Court to Address
Whether Craig Survives Crawford ....................................................... 24
III. THIS CASE IS AN EXCELLENT VEHICLE FOR DETERMINATION OF THE
QUESTIONS PRESENTED .......................... 30
CONCLUSION ......................................................... 31

APPENDIX:
Order of
The Supreme Court of Virginia
Re: Denying Petition for Appeal
entered February 27, 2020 ....................... 1a
Published Opinion of
The Court of Appeals of Virginia
Re: Affirming Appellant’s Convictions
entered June 4, 2019 ................................ 2a

v
Sentencing Order of
The Circuit Court of Loudoun County
entered December 30, 2016 .................... 90a
Order of
The Honorable Stephen E. Sincavage
Re: Two Way Closed Circuit
Television Testimony
entered April 8, 2016 .............................. 94a
Order of
The Supreme Court of Virginia
Re: Denying Petition for Rehearing
entered August 5, 2020 ........................ 100a
Va. Code § 18.2-67.9 ........................................ 101a

vi
TABLE OF AUTHORITIES
Page(s)
CASES
Bush v. State,
2008 WY 108, 193 P.3d 203 (Wyo. 2008)....... 16
Castillo v. Commonwealth,
70 Va. App. 394, 827 S.E.2d 790 (2019) ... 12, 13
Coy v. Iowa,
487 U.S. 1012 (1988) ................................ 25, 28
Crawford v. Washington,
541 U.S. 36 (2004) .................................. passim
Haggard v. State,
2020 WL 7233672 (Tex. Crim. App. 2020) .... 29
Horn v. Quarterman,
508 F.3d 306 (5th Cir. 2007) .......................... 13
In re K.S.,
966 A.2d 871 (D.C. 2009) ............................... 16
Johnson v. Commonwealth,
40 Va. App. 605, 580 S.E.2d 486 (2003) ........ 13
Maryland v. Craig,
497 U.S. 836 (1990) ................................ passim
Ohio v. Roberts,
448 U.S. 56 (1980) .................................. passim
Parrish v. Commonwealth,
38 Va. App. 607, 567 S.E.2d 576 (2002) ........ 13

vii
People v. Jemison,
No. 157812
(Mich. June 22, 2020)................... 21, 24, 27, 29
Roadcap v. Commonwealth,
50 Va. App. 732, 653 S.E.2d 620 (2007) .... 9, 13
Rodriguez de Quijas v.
Shearson/American Express, Inc.,
490 U.S. 477 (1989) ........................................ 29
State v. Hernandez,
986 A.2d 480,
159 N.H. 394 (N.H. 2009) .................. 18, 20, 21
State v. Thomas,
2016 NMSC 24, 376 P3d 184 (2016).............. 29
United States v. Abel,
469 U.S. 45 (1984) .......................................... 28
United States v. Carter,
907 F.3d 1199 (9th Cir. 2018) ........................ 29
CONSTITUTIONAL PROVISION
U.S. CONST. amend. VI ......................................... 2, 29
STATUTES
28 U.S.C. § 1257(a) ..................................................... 1
42 Pa. Cons. Stat. § 5982 .................................... 15, 19
42 Pa. Cons. Stat. § 5984.1 ....................................... 18
725 Ill. Comp. Stat. Ann. 5/106B-5 .................... 15, 17
Ala. Code § 15-25-3 ................................................... 15

viii
Alaska Stat. § 12.45.046 ........................................... 16
Ariz. Rev. Stat. § 13-4251 ................................... 16, 17
Ark. Code Ann. § 16-43-1001.................................... 16
Cal. Penal Code § 1347 ............................................. 17
Colo. Rev. Stat. § 16-10-402 ............................... 16, 17
Conn. Gen. Stat. § 54-86g ......................................... 15
Del. Code Ann. tit. 11, § 3514................................... 17
Fla. Stat. Ann. § 92.54 ........................................ 16, 20
Ga. Code Ann. § 17-8-55 ........................................... 17
Hawaii Code § 801D-7 .............................................. 15
Idaho Code Ann. § 9-1801 ........................................ 16
Idaho Code Ann. § 9-1803 ........................................ 16
Ind. Code. § 35-37-4-6 ......................................... 15, 17
Ind. Code. § 35-37-4-6(c)(2)-(3) ................................. 17
Iowa Code § 915.38 ................................................... 16
Iowa Code § 915.38(c) ............................................... 17
Kan. Stat. Ann. § 22-3434 ........................................ 16
Ky. Rev. Stat. Ann. § 421.350 ............................ 15, 17
LA. Rev. Stat. § 15:283 ....................................... 16, 17
Mass. Ann. Laws ch. 278, § 16D .............................. 15

ix
Md. Code Ann. Crim. Proc. § 11-303 ........................ 15
Mich. Comp. Laws § 712A.17b ................................. 15
Minn. Stat. § 595.02 ................................................. 17
Miss. Code Ann. § 13-1-405 ...................................... 15
Mo. Rev. Stat. § 491.680 ........................................... 17
Mont. Code Ann. § 46-16-226-229 ............................ 17
N.C. Gen. Stat. § 15A-1225.1 ................................... 15
N.H. Rev. Stat. Ann. § 517:13-a ......................... 19, 20
N.J. Stat. Ann. § 2A:84A-32.4 .................................. 15
N.M. Stat § 38-6A-1 through 38-6A-9 ...................... 16
N.Y. C.P.L.R. 65.00 - 65.30................................. 15, 19
Nev. Rev. Stat. Ann. § 50.500 through 50.610 ........ 16
Ohio Rev. Code Ann. § 2152.81 ................................ 17
Ohio Rev. Code Ann. § 2945.49 .......................... 17, 18
Okla. Stat. Ann. tit. 12, § 2611.3 ............................. 16
Okla. Stat. Ann. tit. 12, § 2611.7 ............................. 19
Or. Rev. Stat. § 419C.025 ......................................... 18
R.I. Gen. Laws § 11-37-13.2 ......................... 15, 18, 19
S.C. Code Ann. § 19-1-180 .................................. 15, 20
S.D. Codified Laws § 26-8A-30 ................................. 17

x
S.D. Codified Laws § 26-8A-31 ................................. 19
Tenn. Code Ann. § 24-7-120 ............................... 17, 20
Tex. Code Crim. Proc. art. 38.071 ...................... 17, 18
Va. Code § 16.1-253.2 ................................................. 2
Va. Code § 18.2-32 ...................................................... 2
Va. Code § 18.2-67.9 ......................................... passim
Va. Code § 18.2-67.9(A) .............................................. 5
Va. Code § 18.2-67.9(B) .............................................. 5
Va. Code § 18.2-90 ...................................................... 2
Va. Code §§ 18.2-362 et seq. ..................................... 12
W. Va. Code Ann. § 62-6B-2 ..................................... 15
W. Va. Code Ann. § 62-6B-4 ............................... 18, 19
Wash. Rev. Code Ann. 9A.44.150 ............................. 17
Wisconsin Stat. § 972.11(2m) ................................... 16
RULES
Hawaii R. Evid. 616 .................................................. 15
Miss. R. Evid. 617 ..................................................... 15
Utah R. Crim. Proc. 15.5 (2008) ............................... 15
Vt. Rule 807 .................................................. 15, 17, 19

xi
OTHER AUTHORITIES
“CEO Accused Of Making Wife’s Death
Look Like Suicide - Crime Watch Daily
With Chris Hansen (Pt 3),” March 20, 2017,
starting at minute 3:50 available at
https://www.youtube.com/watch?v=5M1zFhNz
zG8 (last visited December 26, 2020)......................... 9

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Braulio Castillo respectfully petitions for a writ of certiorari to the Supreme Court of
Virginia to review the judgment against him in
Braulio M. Castillo v. Commonwealth, Record No.
191028 (2020).
OPINIONS BELOW
The decision of the Virginia Supreme Court refusing the petition for appeal, No. 191028, is unpublished; it is reproduced in the Appendix at 1a. The
decision of the Virginia Supreme Court refusing the
petition for rehearing is unpublished; it is reproduced
in the Appendix at 100a. The decision of the Virginia
Court of Appeals denying the petition for appeal on
the merits is published at 70 Va. App. 394, 827 S.E.2d
790 (Va. App. 2019); it is reproduced in the Appendix
at 2a. The Loudoun County Circuit Court’s final judgment is unpublished and reproduced in the Appendix
at 90a. The Loudoun County Circuit Court’s order
permitting closed-circuit television testimony of a
non-victim child witness during Petitioner’s trial is
unpublished and reproduced in the Appendix at 94a.
The trial court proceedings in the Loudoun County
Circuit Court are unpublished.
JURISDICTION
The Virginia Supreme Court issued its decision
denying Petitioner’s petition for rehearing on August
5, 2020. This Court has jurisdiction under 28 U.S.C.
§ 1257(a).

2
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
The Sixth Amendment to the United States
Constitution provides in relevant part: “In all criminal prosecutions, the accused shall enjoy the right . . .
to be confronted with the witnesses against him [and]
to have compulsory process for obtaining witnesses in
his favor.”
Virginia Code Annotated § 18.2-67.9 permitting testimony by child victims and witnesses using
two-way closed-circuit television is reproduced in the
Appendix at 101a.
STATEMENT OF THE CASE
On March 20, 2014, Ms. Michelle Castillo was
found hanging from the shower head in the bathroom
basement of her home, having died from an apparent
suicide in Loudoun County, Virginia. After a brief investigation, law enforcement charged her husband,
Braulio Castillo, the Petitioner, with first degree murder, breaking and entering with the intent to commit
murder, and violation of a protective order,1 theorizing that he murdered his wife and staged the suicide.
Petitioner and Ms. Castillo separated after Ms. Castillo had obtained a protective order barring Petitioner from the marital home and subsequently initiated divorce proceedings. Petitioner and Ms. Castillo
had been separated for approximately one year prior
to her death. Ms. Castillo also had primary physical

Virginia Code § 18.2-32, § 18.2-90, and § 16.1-253.2, respectively.
1

3
custody of their four minor children.2 Petitioner lived
over one-half mile away in a home the couple had purchased prior to their separation.
More than two years later and after extensive
pre-trial litigation, Petitioner was tried before a jury
in the Loudoun County Circuit Court. The trial lasted
six weeks from May 17, 2016 to June 21, 2016. Prosecution and defense experts testified to contradictory
theories regarding the manner of Ms. Castillo’s death
(homicide vs. suicide). The prosecution and defense,
each presenting DNA expert opinion, argued divergent opinions concerning the potential source of Petitioner’s DNA found on bedding in the decedent’s bedroom and the sweatshirt Ms. Castillo was wearing at
the time of her death. Counsel clashed pretrial and
during trial over the prosecution’s use of poor quality
security footage from a neighbor’s residence showing
a jogger turning up Ms. Castillo’s driveway the night
of her death and the use of novel cadaver dog evidence. The Petitioner testified that he did not commit
the offenses and presented alibi evidence. The prosecution, in its rebuttal case, attempted to discredit defense evidence and Petitioner’s alibi, resulting in the
defense presenting surrebuttal testimony in support
of the alibi. However, of the dozens of witnesses who
testified at trial, only one eyewitness would place
Petitioner in Ms. Castillo’s home the night of her
death -- the Castillo’s then eight year old son, Z.C.,
who was six years old at the time of his mother’s
death.

The children were ages 11, 9, 6, and 3 at the time of Ms. Castillo’s death.

2

4
Z.C. was interviewed numerous times in the
two years preceding the trial. In three separate interviews with law enforcement and Child Protective Services, each occurring shortly after Ms. Castillo’s
death, Z.C. said he did not see his father in his
mother’s home the night of her death.3 Six months
then lapsed before Z.C. was interviewed a fourth time.
The interview was conducted after David Meeker, one
of Z.C.’s foster parents, reported to law enforcement
that Z.C., for the first time, stated that on the night of
his mother’s death Petitioner gave him his “gigi” (his
favorite blanket) while he slept in his brother’s room
inside his mother’s home. Tr. 6/3/16 at 95. During the
six months between his mother’s death and this new
revelation, Z.C. had been in the custody of David and
Stephanie Meeker, both of whom fiercely believed in
Petitioner’s guilt. Tr. 4/6/16, 52-3. At trial, both
Meekers identified Petitioner as the jogger, captured
in a neighbor’s nighttime security footage, turning up
Ms. Castillo’s driveway the night of her death. David
Meeker testified his identification was solely based on
his observation that the jogger’s right knee bowed by
one to two inches when the jogger turned left to cross
the street despite acknowledging that Petitioner did
not “run” like the jogger did. Stephanie Meeker’s
identification was based on Petitioner’s “gait.” Tr.
In his first interview, Z.C. said that his parents lived together
with him in their home and had slept in their bed last night, and
that his mother had driven him to school that morning. Commonwealth v. Braulio Castillo, Loudoun County Circuit Court
CR26450-00-01-02, transcript dated 5/27/2016 at 111-14 (hereinafter “Tr.”). Later, in that same interview, Z.C. contradicted
his earlier statement and said no one was present in the home
that night other than his mother and three siblings. Z.C. reaffirmed this in two later interviews, one on March 23 and another
on March 30, 2014. Id. at 107-08.
3

5
6/6/2016 at 226-27, 276, 293, 298, 302-03. Both were
extraordinary assertions given that the FBI agent
tasked with enhancing the security footage was
unable to discern at trial the jogger’s height, weight,
or even sex due to the video’s poor quality and could
only say he saw a figure moving. Tr. 5/25/2016 at 56,
72-75.
Having a statement from Z.C., albeit a shifting
one, placing Petitioner at the scene of the alleged
crime, the prosecution moved pre-trial to allow Z.C. to
testify via two-way closed-circuit television (“CCTV”),
outside of Petitioner’s presence pursuant to Virginia
Code § 18.2-67.9. This statute permits child witnesses
up to the age of sixteen to testify via CCTV in a range
of cases, including any murder prosecution, upon the
trial court making certain findings.4 At the pre-trial
hearing, Z.C.’s therapist for the past two years, a social worker, was called as an expert witness in
“trauma specialization.” App. 56a. She admitted that
she had reviewed no research about children suffering
trauma due to testifying in open court versus remotely and further admitted she had never discussed
with Z.C. the possibility of testifying in open court. Tr.
4/6/16 at 57-58, 65, 77-78. She simply stated Z.C. was
a sensitive boy and it would be upsetting for Z.C. (now
age 8) to testify in front of his father. Id. at 46, 64-65,

See Virginia Code § 18.2-67.9(A) & (B) (indicating that a child
victim or witness may testify via two-way closed-circuit television for the “following reasons: 1. The child’s persistent refusal
to testify despite judicial requests to do so; 2. The child’s substantial inability to communicate about the offense; or 3. The
substantial likelihood, based upon expert opinion, that the child
will suffer severe emotional trauma from so testifying.”). App.
101a.
4

6
81. She further stated “that it is my opinion that having to testify in open court would be significantly and
severely traumatizing to [Z.C.] emotionally.” Id. at
4/6/16 at 82. Z.C. never actually discussed his feelings
towards his father in therapy or expressed any belief
that his father killed his mother. Critically, he said
the opposite, stating in a therapy session that he did
not see his father that night, thus casting further
doubt as to the reliability of his forthcoming trial testimony. Id. at 63-65, 81.
In objecting to taking Z.C.’s testimony remotely, defense counsel argued that Virginia Code
§ 18.2-67.9 violated the Confrontation Clause because
Maryland v. Craig, 497 U.S. 836 (1990), did not survive Crawford v. Washington, 541 U.S. 36 (2004),
which in defense counsel’s view, required face-to-face
confrontation in the courtroom. Craig permitted child
victims to testify via CCTV upon a two-prong finding
that (1) the “denial of such confrontation is necessary
to further an important public policy,” and (2) “the reliability of the testimony is otherwise assured,” 497
U.S. at 850. The Craig decision depended on the reliability-balancing approach to the Confrontation
Clause approved by Ohio v. Roberts, 448 U.S. 56
(1980) and subsequently overruled by Crawford.
Crawford held that the Confrontation Clause is “a
procedural rather than a substantive guarantee [that]
commands, not that evidence be reliable, but that reliability be assessed in a particular manner: by testing in the crucible of cross-examination.” 541 U.S. at
61. Defense counsel also argued that even if Craig
survived Crawford, Virginia’s remote testimony statute was impermissibly broader than the Maryland
law considered in Craig, which only extended to child
abuse victims, and thus allowing Z.C., a non-victim

7
child witness, to testify remotely, would violate
Petitioner’s rights under the Confrontation Clause.
See generally Id. at 112-127.
Defense counsel underscored the importance of
face-to-face confrontation, particularly given the child
witness’s shifting accounts:
So from knowing nothing at all to potentially placing his father in the house
with Michelle Castillo on the night that
she died. If his story at trial is that one,
the Commonwealth could have no better
evidence and if the jury believed that
story they will likely convict. All the
more reason why this child, six at the
time of the death, must testify in Court,
yes, in his father’s presence and in the
presence of the jurors so they can judge
his story accurately, Judge, not filtered
through a TV simply because you cannot
get a feel for a person’s demeanor, trustworthiness, credibility, whatever word
you want to use, on a TV.
Id. at 113.
Unpersuaded, the trial court granted the prosecution’s motion to permit Z.C. to testify via CCTV,
squarely ruling “I don’t find that Crawford overrules
Craig. I find [Va. Code §18.2-67.9] constitutional.” Id.
at 131-32. The court allowed Z.C. to testify via CCTV
based on his age, the fact that he was a witness in a
murder case, and its conclusion, based on Z.C.’s therapist’s testimony that testifying in open court in front
of his father would be a general source of trauma for
Z.C. Id. at 132-33.

8
At trial, Z.C. testified from a separate courtroom. David Meeker, his foster parent who strongly
believed in Petitioner’s guilt and who himself testified
as a prosecution witness, was allowed to accompany
him. Tr. 5/26/16 at 8, 14. When the trial judge asked
Z.C. if knew why he was in court, Z.C. stated that he
did not. The trial court did not tell Z.C. that he was
testifying at a criminal trial, let alone at his father’s
murder trial. Tr. 5/27/16 at 34, 38-39. Rather than
have Z.C. take a formal oath to testify truthfully, the
trial court had Z.C. promise to tell the truth. Id. Z.C.’s
testimony was displayed on a television screen inside
the courtroom where his father was on trial. Z.C.
could not see Petitioner during his testimony. Id. at
33-34, 67.
On direct examination, Z.C. said that Petitioner brought him his “gigi,” or blanket, while he
slept in his older brother’s bedroom in his mother’s
home the night of her death. Id. at 91. On cross-examination Z.C., consistent with his earlier interviews,
said that he did not see his father in the home that
night. Id. at 111-12. Yet then on re-direct, Z.C. reverted back to his position on direct. Id. at 120-21.
Despite his equivocating, the jury was seemingly moved by Z.C. saying his father gave him his
“gigi.” In 2017, the television show Crime Watch with
Chris Hanson featured Petitioner’s case. During the
episode, Sheri Muilenburg, a juror at Petitioner’s
trial, stated: “It was the fact that [Z.C.] said his dad
brought him his blanket. That was really important

9
for all of us. I know he was telling the truth when he
said that.” (emphasis added).5
After the close of evidence and argument, the
jury found Petitioner guilty of first degree murder,
breaking and entering with the intent to commit murder, and violating a protective order. Petitioner was
sentenced to life imprisonment plus sixteen years.
App. 90-92a.
Petitioner appealed his convictions to the Virginia Court of Appeals. Among other asserted errors
committed by the trial court, he argued that Virginia
Code § 18.2-67.9, permitting two-way CCTV for minor
witnesses, was unconstitutional because Maryland v.
Craig, 497 U.S. 836 (1990) was overruled by Crawford
v. Washington, 541 U.S. 36 (2004). The appellate
court dismissed Petitioner’s claim based on the court’s
own precedent, citing Roadcap v. Commonwealth, 50
Va. App. 732 (2007) (declining to find that Crawford
overruled Craig). 6 Petitioner next argued that the
application of § 18.2-67.9 violated the Confrontation
Clause because the statute is broader in scope
than the statute considered in Craig, which only
“CEO Accused Of Making Wife’s Death Look Like
Suicide - Crime Watch Daily With Chris Hansen (Pt 3),”
March 20, 2017, starting at minute 3:50 available at
https://www.youtube.com/watch?v=5M1zFhNzzG8 (last visited
December 26, 2020).
5

In Roadcap, the Virginia Court of Appeals rationalized that the
statute was constitutional in part because it was less restrictive
than the statute at issue in Craig which involved one-way CCTV
for child victims in sex crime cases as opposed to two-way CCTV.
Id. at 742. However, the Virginia statute is truly no less restrictive than the Maryland statute where the Virginia statute fails
to require that the witness be able to see the defendant, impairing confrontation.
6

10
authorized CCTV testimony for child abuse victims.
The appellate court acknowledged Virginia’s statute
was broader than the statute considered in Craig in
allowing non-victim child witnesses to testify remotely, but interpreted Craig “as allowing a necessity-based exception for face-to-face, in-courtroom
confrontation where the witness’ inability to testify in
court invokes a state’s interest in protecting the witness,” and not “as limiting this reasoning only to the
protection of a state’s interest in protecting child
abuse victims.” App. 62a.

Petitioner appealed to the Virginia Supreme
Court, which denied his petition for appeal and his
petition for rehearing. This petition follows.
REASONS FOR GRANTING THE WRIT
I. INTERVENTION BY THIS COURT IS NECESSARY
A. Virginia Courts and Other Courts Around
the Nation Are Misapplying the Narrow
Holding of Maryland v. Craig in Reliance
on Unconstitutional Statutes
1. Virginia Code § 18.2-67.9 unconstitutionally broadens the scope of Craig v.
Maryland
Until this Court states otherwise, Craig remains the law. In Petitioner’s view, if valid, Craig is
a narrow decision holding that “if the State makes an
adequate showing of necessity, the state interest in
protecting child witnesses from the trauma of testifying in a child abuse case is sufficiently important to
justify the use of a special procedure that permits a

11
child witness in such cases to testify against a defendant in the absence of face-to-face confrontation with
the defendant.” 497 U.S. at 855. 7 And even if this
Court were to find Craig survives Crawford but is limited to its facts, Virginia, along with many other
states as described below, has enacted a statute -- Virginia Code § 18.2-67.9 -- that extends far beyond
Craig. The case at hand represents Virginia’s statute
at its most extreme -- where it allowed a child witness
to testify against the accused behind the shield of
CCTV, without having to see the accused, with no requirement that the witness be told his own father is
on trial for murder to impress upon the child the importance of telling the truth, and without giving “the
parent so much as the opportunity to sit in presence
of the child, and to ask, personally or through counsel,
“it is really not true, is it, that I --your father (or
mother) whom you see before you -- did these terrible
things?” Maryland v. Craig, 497 U.S. 836, 861 (1990)
(Scalia, J., dissenting).
Virginia Code § 18.2-67.9 was enacted in 1988.
In relevant part, the 1988 version of the statute allowed child victims, age 12 and under, to testify using
CCTV in a limited category of cases involving alleged
offenses committed against that child. In 1999, the
statute experienced its first significant expansion,
allowing not just child victims to testify behind CCTV
Indeed, the critical issue in Craig was whether the use of the
CCTV procedure “is necessary to further an important state interest. The State contends that it has a substantial interest in
protecting children who are allegedly victims of child abuse from
the trauma of testifying against the alleged perpetrator and that
its statutory procedure for receiving testimony from such witnesses is necessary to further that interest.” Craig, 497 U.S. at
852.
7

12
but also permitting any child witness, age 14 or under
at the time of trial, to testify against the accused
using CCTV in cases involving enumerated alleged
offenses8 committed against a child. Importantly, the
1999 version of the statute was limited to alleged offenses committed against children.
In 2001, three years before this Court decided
Crawford, the statute was further broadened to erode
defendants’ Confrontation rights by allowing child
victims, and any child witnesses up to age 16 at the
time of trial, to testify via CCTV in any criminal
proceeding involving an alleged murder of a person of
any age. App. 101a. This version of the statute was in
effect at the time of Mr. Castillo’s prosecution, and
formed the basis for the trial court’s decision allowing
Z.C., a non-victim child witness, to testify against his
father via CCTV.
The Virginia Court of Appeals decision in Mr.
Castillo’s case appears to be the only published opinion from a Virginia appellate court addressing the
constitutionality of Virginia Code § 18.2-67.9 on the
grounds that it is impermissibly broader in scope than
the statute authorized by Craig because it allows
child witnesses, not just child victims, to testify
behind two-way CCTV in a wide variety of cases, and
not just cases involving crimes against children. App.
2a. The limited number of cases considering the con-

The 1999 amended statute allowed for alleged child victims and
child witnesses to testify behind CCTV in any criminal proceeding involving an alleged offense against a child relating to laws
pertaining to kidnapping, criminal sexual assault, or family offenses pursuant to Article 4 (Section 18.2-362 et seq.) of Chapter
8 of Title 18.2.

8

13
stitutionality Virginia Code § 18.2-67.9 did so on different grounds than those raised here and notably involved child victims in sexual abuse cases.9
In Mr. Castillo’s case, the Virginia Court of Appeals ruled that while § 18.2-67.9 is broader than the
Maryland statute considered in Craig, it is nevertheless facially constitutional because the Court found no
express language in Craig indicating that the decision
was limited to child abuse cases. App. 62a. Rather,
the Court held that Craig establishes “a necessitybased exception for face-to-face confrontation where
the witness’ inability to testify in court invokes a
state’s interest in protecting the witness, and do not
regard its specific language as limiting this reasoning
only to the protection of a state’s interest in protecting
child abuse victims.” Id. (citing Horn v. Quarterman,
508 F.3d 306, 319-20 (5th Cir. 2007) (“Craig’s reference to ‘an important public policy’ and ‘an important
state interest,’ are reasonably read to suggest a general rule not limited to protecting child victims of sexual offenses from the trauma of testifying in a defendant’s presence.” (citation omitted) (quoting Craig, 497
U.S. at 850, 852)).

See e.g. Parrish v. Commonwealth, 38 Va. App. 607, 567 S.E.2d
576 (Va. App. 2002) (wherein Parrish’s six year old daughter
testified against him at his animate object sexual penetration
case where his daughter was the victim and where the statute
employed at trial was the 1999 version of 18.2-67.9); Roadcap v.
Commonwealth, 50 Va. App. 732, 653 S.E.2d 620 (Va. App. 2007)
(wherein Roadcap’s daughter victim and son witness testified
using CCTV against Roadcap at his trial for 12 sex crimes
charges against his daughter); Johnson v. Commonwealth,
580 S.E.2d 486, 40 Va. App. 605 (Va. App. 2003) (wherein the
child victim testified via CCTV against her alleged sexual
abuser).

9

14
The approach of the Virginia Court of Appeals,
sanctioned by the Virginia Supreme Court in denying
Mr. Castillo’s petition for appeal, endorsing a “necessity based exception for face-to-face confrontation,”
should be rejected by this Court where it creates an
expansive exception to the Confrontation Clause, contravenes its literal text, and undermines Crawford’s
principle that the Confrontation Clause creates a procedural right to be exercised in a particular way— via
face-to-face Confrontation. Crawford, 541 U.S. at 61
(stating the Confrontation Clause creates “a procedural rather than a substantive guarantee [that] commands, not that evidence be reliable, but that reliability be assessed in a particular manner: by testing
in the crucible of cross-examination.”).
2. Other States Are Misapplying the Law
In addition to Virginia’s problematic statute allowing remote testimony of non-victim children, a review of the fifty states’ laws concerning the presentation of child witness testimony remotely reveals a
startling hodgepodge of differing approaches and procedural protections, or lack thereof, for those facing
criminal charges. There is virtually no consistency in
terms of who can testify, the age of that person, the
types of offenses in which remote testimony is permitted, or the evidentiary standards that must be met to
authorize such testimony, which has resulted in a
wide range of statutes, some facially consistent with
Craig and many others well beyond its facts.
It would appear that eighteen states’ statutes
only allow CCTV testimony for child victims of sex offenses, and in some instances abuse and neglect of-

15
fenses, and child witnesses in trials of those same offenses.10 At the opposite end of the spectrum, fifteen
states and the District of Columbia have no such limitations and allow child victims and child witnesses to
testify remotely in any criminal proceeding upon the
trial court making certain findings, even for offenses

See Ala. Code § 15-25-3 (involving physical offenses, sexual offenses and sexual exploitation offenses committed against a
child age 16 or under); Conn. Gen. Stat. § 54-86g (2012) (allowing
child victims and witnesses age 12 or under in sexual abuse
against children cases); Hawaii Code 801D-7; Hawaii Rule of Evidence 616 (allowing children to testify in abuse offense or sexual
offense against a child prosecutions); 725 Ill. Comp. Stat. Ann.
5/106B-5 (allowing child victims in sexual abuse cases and witnesses with developmental disabilities); Ind. Code. § 35-37-4-6
(Indiana); Ky. Rev. Stat. Ann. § 421.350 (2012) (allows child victims age 12 and witnesses to offenses against age 12; sexual offenses against children as well as other limited offenses against
children); Md. Code Ann. Crim. Proc. § 11-303 (2012) (allowing
only child victims in allegations of abuse); Mass. Ann. Laws ch.
278, § 16D (2012) (allows child victims and child witnesses to
offenses committed against children, as well as some other discrete and seemingly archaic offenses); Mich. Comp. Laws
§ 712A.17b (2012) (allows child victims of sexual offenses and
victims with disabilities age 16 or older); Miss. Code Ann. § 131-405 (2012), Miss. R. Evid. 617 (allows child victims of sexual
offenses and child witnesses to sexual offenses committed
against children); N.J. Stat. Ann. § 2A:84A-32.4 (allows child victims and witnesses of sexual and abuse offenses committed
against a child); N.Y. C.P.L.R. 65.00 - 65.30 (allows “vulnerable”
child witnesses to testify via life two-way CCTV in “sex crimes”
cases); N.C. Gen. Stat. § 15A-1225.1; 42 Pa. Cons. Stat. Ann.
§ 5982; R.I. Gen. Laws § 11-37-13.2 (2012); S.C. Code Ann. § 191-180 (2019); Utah R. Crim. Proc. 15.5 (2008); Vt. Rule 807
(2015); W. Va. Code Ann. § 62-6B-2 (2019).
10

16
where a child is not the victim.11 Even in the latter
category, variation exists. Some states permit the
child to remotely testify about any offense and
others only allow remote testimony if the child has
an emotional relationship with the accused. In
between these two extremes are a variety of other
approaches. For instance, at least three states permit
child victims, and four others also include child
witnesses, to testify using CCTV technology in
cases involving specific violent felonies and other
enumerated felonies allegedly committed against the

Alaska Stat. § 12.45.046 (allowing child witnesses in prosecution of a number of offenses committed against a child or witnessed by a child); ARIZ. REV. STAT. § 13-4251 (child witness
under age 15 in criminal proceedings where acts were committed
against the minor or witnessed by the minor); Ark. Code Ann.
§ 16-43-1001 (child witnesses age 12 or under in “any criminal
proceeding”); Colo. Rev. Stat. § 16-10-402 (2012) (allowing witnesses, age 12 or younger, in any criminal proceeding); Fla. Stat.
Ann. § 92.54 (allowing child victims and witnesses under age 18
in any criminal proceeding); Idaho Code Ann. §§ 9-1801; 9-1803
(“any criminal proceeding”); Iowa Code § 915.38 (allowing “minors” in any criminal proceeding); Kan. Stat. Ann. § 22-3434
(2012) (applies to child victims less than age 13 in a proceeding
involving any offense); LA. Rev. Stat. § 15:283 (allowing “protected persons” including witnesses and victims and persons age
17 and under with a developmental disability in any criminal
proceeding); N.M. Stat § 38-6A-1 through 38-6A-9 (allows child
victims of any offense); Nev. Rev. Stat. Ann. § 50.500 through
50.610 (child victims and witnesses in any criminal proceeding);
Okla. Stat. Ann. Tit. 12, § 2611.3 (child witnesses under 13 in
proceedings involving an alleged violation of a “criminal law of
this state”); Wisconsin Stat. § 972.11(2m) (2012) (allowing child
witness under age 12 and child witness under age 16 with additional findings by the court in any criminal prosecution); Bush v.
State, 2008 WY 108, 193 P.3d 203 (Wyo. 2008); In re K.S., 966
A.2d 871 (D.C. 2009).
11

17
child,12 one state allows child victims only to testify
remotely in any offense committed against that
child,13 and at least six states have statutes similar to
Virginia’s and allow child victims and child witnesses
to testify in a specified range of cases where the victim
is someone other than the child.14 North Dakota, Wyoming and the District of Columbia do not have child
witness CCTV statutes, though appellate courts in
each jurisdiction have addressed the issue.
Michigan allows not just child victims but also
victims (age 16 and older) of sexual offenses with developmental disabilities, to testify using CCTV, and
seven states allow adult witnesses with a “developmental disability” or other “disability” to testify in
criminal proceedings using CCTV. 15 At least five
Cal. Penal Code § 1347 (2012); Ind. Code. § 35-37-4-6 (2012);
Ky. Rev. Stat. Ann. § 421.350 (2012); Ohio Rev. Code Ann.
§ 2152.81, § 2945.49; Tenn Code § 24-7-120 (2012); S.D. Codified
Laws § 26-8A-30 (2019).
12

13

Mo. Rev. Stat. § 491.680 (2012).

Del. Code Ann. tit. 11, § 3514; Ga. Code Ann. § 17-8-55; Minn.
Stat. § 595.02; Mont. Code Ann. § 46-16-226-229 (2012); Tex.
Code Crim. Proc. art. 38.071 (2012); Wash. Rev. Code Ann.
9A.44.150 (2013).
14

Ariz. Rev. Stat. § 13-4251 (allowing a witness who has developmental disabilities as defined by statute and who has a tested
IQ score below 75); Colo. Rev. Stat. § 16-10-402 (2012) (allowing
a person who has an intellectual and developmental disability);
725 Ill. Comp. Stat. Ann. 5/106B-5 (2012) (allowing persons that
are “moderately, severely, or profoundly mentally retarded or a
person affected by a developmental disability); Ind. Code. § 3537-4-6 (c)(2)-(3) (allowing adults victims with certain disabilities); Iowa Code § 915.38(c) (allowing persons, victim or witness,
of any age with a mental illness, intellectual disability, or other
developmental disability); LA. Rev. Stat. § 15:283 (2012) (allowing persons with disabilities, as defined by statute); Vt. Rule 807
(2015).
15

18
states either do not allow CCTV, instead using video
depositions or in-camera testimony, or do not specify
what means of remote testimony will be used for child
witnesses.16 At least three states permit admission at
trial of a child and/or child victim’s taped testimony.17
New Hampshire has gone so far as to extend Craig to
authorize prosecution witnesses, adult or otherwise,
to wear masks or other disguises while testifying. See
State v. Hernandez, 986 A.2d 480, 159 N.H. 394 (N.H.
2009). Oregon allows any person to appear by telephone or CCTV, in virtually unlimited types of proceedings, as long as all interested parties have access
to the chosen method of remote testimony.18 Rhode
Island has codified a rebuttable presumption that a
child victim age 14 or under at the time of trial is unable to testify in a sexual assault case, placing the
burden on the defense to overcome that presumption.19 West Virginia, by statute, requires a jury instruction, unless waived by the defendant, that “the
use of live, two-way closed-circuit television is being
used solely for the child’s convenience . . . as a matter
of law.”20
Furthermore, what constitutes a “child” for
purposes of remote testimony statutes is subject to
substantial variation and ranges anywhere from age
11 to age 18. Generally speaking, those states with
16

Nebraska, Nevada, New Mexico, North Carolina, and Idaho.

Ohio Rev. Code Ann. § 2945.49 (allowing admission of child
victim’s preliminary hearing testimony); 42 Pa. Cons. Stat.
§ 5984.1 (allows for admission of child witnesses recorded testimony); Tex. Code Crim. Proc. art. 38.071 (2012).
17

18

Or. Rev. Stat. § 419C.025 (2019).

19

R.I. Gen. Laws § 11-37-13.2 (2019).

20

W. Va. Code Ann. § 62-6B-4 (2019).

19
narrower statutes, reminiscent of the statute authorized by Craig, err on the side of younger child witnesses. Conversely, the opposite is true for those
states with statutes reaching well beyond the bounds
of Craig’s factual holding. In some instances, age is
irrelevant and the fact that the person has a specified
disability is the decisive factor. In terms of the type
of CCTV (one-way or two-way), some states specifically codify that the child or person testifying cannot
see the defendant,21 whereas others have done the opposite ensuring the witness can see the person
against whom he or she is testifying,22 and at least
one state projects the image of the defendant using
two way CCTV but leaves the decision of whether to
see the image up to the child witness.23
While statutes have generally codified the factual findings a trial court must make before allowing
a witness to testify remotely, the standard applied to
those factual findings varies, as well as the factors
themselves. For instance, some states apply a preponderance of the evidence standard24 and others employ a clear and convincing standard. 25 Virginia’s
statute, along with other states, fails to delineate an
evidentiary standard to be applied to a finding in favor of remote testimony—making the trial court the
final arbiter of the manner in which an accused’s Confrontation Clause rights will be limited and exercised,
42 Pa. Cons. Stat. Ann. § 5982; R.I. Gen. Laws § 11-37-13.2
(2019).
21

N.Y. C.P.L.R. 65.00 - 65.30 (2012); S.D. Codified Laws § 268A-31 (2020); Vt. Rule 807 (2015).
22

23

W. Va. Code Ann. § 62-6B-4 (2019).

24

See N.H. Rev. Stat. Ann. § 517:13-a.

25

See Okla. Stat. Ann. tit. 12, § 2611.7.

20
reminiscent of the now rejected Ohio v. Roberts approach to the Clause. Furthermore, the findings required by trial courts themselves are subject to variation. While some require a finding that a child will
suffer serious emotional harm, others require “emotional or mental strain,” 26 “moderate emotional or
mental harm,”27 “severe emotional trauma,”28 or more
than de minimis trauma.29
From this, what becomes apparent is that it is
not just Virginia that has strayed from the confines of
Craig. A particularly poignant illustration, briefly referenced infra, is the New Hampshire Supreme Court
decision of State v. Hernandez, 986 A.2d 480, 488, 159
N.H. 394 (N.H. 2009). Hernandez is not concerned
with remote testimony but is demonstrative of the
issue articulated here -- that the holding of Craig is
being misinterpreted and expanded at the expense of
the Confrontation right of the criminally accused.
Hernandez held that prosecution witnesses wearing
disguises, such as masks, while testifying does not
violate the defendant’s confrontation rights. Following Craig, Hernandez held that trial courts must first
make “specific findings that the disguise is necessary
to further an important State interest and that the
reliability of the evidence is otherwise assured.” In
Hernandez the “important State interest” was that
the detective testifying was, at the time of trial, an
undercover narcotics detective and thus the mask was
necessary to protect his “personal safety and identity.” Hernandez, 986 A.2d at 482. The trial court
26

See N.H. Rev. Stat. Ann. § 517:13-a.

27

See Fla. Stat. Ann. § 92.54.

28

See S.C. Code Ann. § 19-1-180.

29

See Tenn. Code Ann. § 24-7-120 (2012).

21
granted the state’s request to allow the detective to
testify while wearing a ski mask despite the fact that
the jury had already seen the detective’s face in a previously recorded video. In upholding the trial court,
the New Hampshire Supreme Court agreed that a ski
mask obscuring the witness’s face would not impede
the jury’s ability to assess his credibility. Id. at 482-83.
The Hernandez opinion, which illustrates a
troubling extension of Craig, is in stark contrast to
the Michigan Supreme Court’s recent opinion in People v. Jemison, which rejected a lower court’s extension of Craig to witnesses other than child abuse victims and went so far as to say that Craig should not
survive Crawford. People v. Jemison, No. 157812, slip
op. at 9 (Mich. June 22, 2020). The contrasting applications of Craig and the startling array of laws
around the nation governing remote testimony, many
of which bear no resemblance to Craig’s discrete holding, underscores the need for this Court’s intervention
to provide guidance as to Craig’s scope and determine
whether it survives Crawford.
B. Allowing a Child Witness to Testify via
Two-Way CCTV in His Father’s Murder
Trial When the Child Cannot See His
Father Who He Does Not Know is on Trial
for Murder Violates the Confrontation
Clause
What transpired in this case breathes life into
precisely what Justice Scalia warned against in his
impassioned dissent in Maryland v. Craig:
Because of this subordination of explicit
constitutional text to currently favored
public policy, the following scene can be

22
played out in an American courtroom for
the first time in two centuries: A father
whose young daughter has been given
over to the exclusive custody of his estranged wife, or a mother whose young
son has been taken into custody by the
State’s child welfare department, is sentenced to prison for sexual abuse on the
basis of testimony by a child the parent
has not seen or spoken to for many
months; and the guilty verdict is rendered without giving the parent so much
as the opportunity to sit in presence of
the child, and to ask, personally or
through counsel, “it is really not true, is
it, that I --your father (or mother) whom
you see before you -- did these terrible
things?” Perhaps that is a procedure today’s society desires; perhaps (though I
doubt it) it is even a fair procedure; but
it is assuredly not a procedure permitted
by the Constitution.
Maryland v. Craig, 497 U.S. 836, 861 (1990) (Justice
Scalia, dissenting).
Here, Petitioner’s child, Z.C, testified as a witness against him during Petitioner’s murder trial.
Z.C. did so after having barely seen his father in the
two years following his mother’s death and after being
in the custody of foster parents who strongly believed
in Petitioner’s guilt. Z.C.’s testimony, on the issue of
who was in the home the night his mother died, was
fraught with issues and dangerously unreliable. Yet,
this critical testimony was presented to the jury without Z.C. being able to see his father. Beyond that, the

23
trial court failed to ensure Z.C. even knew that he was
testifying at a criminal trial, let alone the murder
trial of his father. Does not meaningful confrontation,
even under Craig, presuppose that the witness be impressed with and know the significance of his or her
testimony? Craig, 497 U.S. at 846 (“We have recognized, for example, that face-to-face confrontation enhances the accuracy of factfinding by reducing the
risk that a witness will wrongfully implicate an innocent person.” (internal citation omitted)). What’s
more, the presentation of Z.C. equivocating testimony
through the filter of closed-circuit television no doubt
bolstered his credibility as a prosecution witness by
the undeniable implication that he needed to be protected from his father.
C. Conflict Amongst the States Regarding
the Scope of Craig and Need for This
Court to Address Whether Craig Survives
Crawford
1. Conflict Among the States Regarding
the Scope of Craig

The Virginia Court of Appeals, in permitting a
non-victim child to testify by CCTV in a murder case
upon a trial court’s finding that the child would suffer
severe trauma from testifying in open court, expands
the narrow holding of Maryland v. Craig, which permitted child abuse victims to testify via CCTV. Craig
held that a child abuse victim could testify remotely
upon finding that (1) the “denial of [in court] confrontation is necessary to further an important public
policy,” and (2) “the reliability of the testimony is
otherwise assured.” 497 U.S. 850. The Virginia court’s
holding allowing non-victim child witnesses to testify

24
by CCTV conflicts with the Michigan Supreme Court
decision of People v. Jemison, No. 157812 (Mich. June
22, 2020), which rejected a lower court’s extending the
Craig decision to witnesses other than child abuse
victims.
In Jemison, the Michigan Supreme Court
found Craig was limited “only to the specific facts it
decided” and the defendant’s right to face-to-face confrontation was violated by the admission of two-way,
interactive video testimony of a lab analyst. Id. slip
op. at 6. That is, the Craig decision applied exclusively
to child victims testifying against the accused party.
Id. Further, the Michigan Supreme Court found that
Crawford v. Washington, 541 U.S. 36 (2004) requires
face-to-face confrontation absent the witness’s unavailability and prior opportunity to be cross-examined
by counsel, which “casts [Craig’s] vitality into doubt
by turning away from the reliability-balancing approach” to the Confrontation Clause of Ohio v.
Roberts, 448 U.S. 56 (1980). Id. slip op. at 2. Noting
that Ohio v. Roberts was explicitly overruled by Crawford, the Jemison court went so far as to suggest that
Craig should not survive Crawford. Id. slip op. at 9.
2. Need for This Court to Address
Whether Craig Survives Crawford
The Jemison Court correctly identified Craig’s
doubtful vitality in light of this Court’s decision in
Crawford. In 1990, when Craig was decided, a defendant’s right to face-to-face confrontation was not absolute but rather one factor to be weighed against others
to purportedly ensure reliable evidence was admitted
at trial. This view of the Confrontation right stemmed
from the now rejected reliability-balancing approach

25
of Ohio v. Roberts, where this Court held that the Confrontation Clause is satisfied even if a hearsay declarant is not present for cross-examination at trial, so
long as the statement bears adequate “indicia of reliability,” and which allowed trial courts vast discretion
in the form and method of admitting evidence. 448
U.S. 56, 66 (1980).
The Craig Court majority, in its 5-4 decision
permitting the remote testimony of a child sex abuse
victim, appears to have recognized that its ruling departed from the historical understanding and literal
text of the Confrontation Clause. It observed that in
Coy v. Iowa the Court had stated that “the Confrontation Clause guarantees the defendant a face-to-face
meeting with witnesses appearing before the trier of
fact” and that “[t]his interpretation derives not only
from the literal text of the Clause, but also from our
understanding of its historical roots.” Craig, 497 U.S.
at 844. But Coy left for another day whether there
could be exceptions to this mandate, and in the reliability-balancing era governed by Roberts, Craig applied a balancing test to determine whether a face-toface meeting in open court between the accused and
witnesses against the accused was required by the
Clause. See Craig, 497 U.S. at 840 (“[O]ur precedents
establish that the Confrontation Clause reflects a
preference for face-to-face confrontation at trial, a
preference that must occasionally give way to considerations of public policy and the necessities of the
case.). Expressly relying on Roberts, Craig held that a
defendant’s right to confront a child witness may be
satisfied absent a face-to-face encounter when necessary to advance an important public policy and when
the testimony is deemed reliable. Id. at 850 (citing
Roberts, 448 U.S. at 64).

26
When Crawford was decided fourteen years
later, the Court’s view of the Confrontation Clause resoundingly changed. Where Roberts approached the
Clause through the lens of a malleable balancing
framework designed to keep out “unreliable” evidence, Crawford sharpened its focus to “testimonial”
statements necessarily implicating the accused’s
right to face-to-face confrontation. Crawford, 541 U.S.
at 68. The Court reached this conclusion after re-examining the literal text of the Clause and its historical roots, concluding that the open-ended reliabilitybalancing approach espoused in Roberts would not
have “provid[ed] any meaningful protection” in the
historical examples that animated inclusion of the
Confrontation Clause in the United States Constitution. Id. Granted, Craig and Crawford address different, though related, issues. Craig focused predominantly on where the witness testifies and assumed
that the witness would be under oath and subject to
cross-examination. Crawford dealt with whether an
out-of-court declarant’s statements, deemed testimonial in nature, were admissible where they were not
subject to cross-examination. However, Crawford presumed that the declarant, if he or she testified, would
testify in open court before the defendant. Recognizing the inherent flaws in approaching confrontation
issues by way of a loose balancing test plagued by exceptions, Crawford created a bright line rule and
overruled Roberts. It held that the Confrontation
Clause is “a procedural rather than a substantive
guarantee [that] commands, not that evidence be reliable, but that reliability be assessed in a particular
manner: by testing in the crucible of cross-examination.” 541 U.S. at 61. Crawford’s requirement that re-

27
liability be assessed through cross-examination assumes the requirement of face-to-face confrontation
in the courtroom. Thus, Crawford’s overruling of Roberts took out Craig’s legs. Crawford also explicitly obviated the second, or reliability, prong of Craig that
left to the trial court’s discretion the manner of ensuring “the reliability of the testimony.” 497 U.S. 850.
Leaving Craig’s ruling in place without the protections of the reliability prong further weakens a criminal defendant’s right to confrontation in the face of a
state’s perceived policy interest in protecting child
witnesses, a direct contradiction to the foundational
principles of the Crawford decision.
Crawford, authored by Justice Scalia, transformed his fervent dissent in Craig into Supreme
Court precedent. See Jemison, slip. op. at 7 (citing
Craig, 497 U.S. at 862 (Scalia, J., dissenting) (rejecting the majority’s reliability-balancing test “because
the Confrontation Clause does not guarantee reliable
evidence; it guarantees specific trial procedures that
were thought to assure reliable evidence, undeniably
among which was ‘face-to-face’ confrontation.”)). Unsurprisingly, Justice O’Connor, who authored the majority opinion in Craig, declined to join Crawford’s
majority opinion. The two cases approach the Confrontation clause in radically different fashions such
that it is difficult to imagine a scenario in which the
Craig ruling survives Crawford. How could a criminally accused’s procedural right to be confronted by
the witnesses against him, face-to-face, be satisfied
when the witness is in another room, shielded from
the person against whom the testimony is offered,
and, on the present facts, does not even known that
he is testifying against his father in a murder trial?
Craig, 497 U.S. at 862 (Scalia, J., dissenting) (“[t]hat

28
face-to-face presence may, unfortunately, upset the
truthful rape victim or abused child; but by the same
token it may confound and undo the false accuser, or
reveal the child coached by a malevolent adult.”); see
also Coy, 487 U.S. at 1019-1020 (“It is always more
difficult to tell a lie about a person ‘to his face’ than
‘behind his back.’”).
Two years prior to Crawford, a majority of the
Court emphasized the centrality of face-to-face
confrontation’s role in U.S. Constitutional protections. A 2002 proposed amendment to the Federal
Rules of Criminal Procedure would have permitted a
trial witness in certain circumstances to testify
remotely, while that witness’s image was presented in
the courtroom via a video connection. Though ordinarily the Court views itself as “merely a conduit” for
proposed Rules amendments, United States v. Abel,
469 U.S. 45, 49 (1984), in this instance the Court, in
a 7-2 vote, declined to pass the proposed amendment
on to Congress. Consistent with his opinion in
Crawford, Justice Scalia proclaimed that the majority
considered the proposed amendment to be “of dubious
validity under the Confrontation Clause.” Statement
of Scalia, J., 535 U.S. 1159 (2002). He added that
“[v]irtual confrontation might be sufficient to protect
virtual constitutional rights; I doubt whether it is
sufficient to protect real ones.” Id. at 1160. Justice
O’Connor did not join the 7-2 majority.
Other courts have also noted that Craig’s vitality is in doubt in the wake of Crawford. In December
2020, the Court of Criminal Appeals of Texas noted
that “[a]lthough Crawford was about the admission of
out-of-court statements, not the dispensation of face-

29
to-face confrontation, some have argued that Crawford implicitly overruled Craig, or at least the reliability prong. See Haggard v. State, 2020 WL 7233672
(Tex. Crim. App. 2020) at *6 (reversing appellant’s
sexual assault conviction where SANE nurse testified
remotely; finding necessity for remote testimony did
not meet Craig test where prosecution failed to subpoena witness). In a concurring opinion in Haggard,
a judge of that court flatly stated that the Framers
could not have imagined that the Confrontation
Clause meant anything other than “[l]iteral, physical,
face-to-face confrontation, live in the courtroom,
[which] is the procedure the Sixth Amendment mandates—not some other procedure that might be
thought by us today to secure the objectives of confrontation at least as efficaciously, if not more so.” Id.
at *10 (citing Crawford v. Washington, 541 U.S. at 61
for the proposition that the Confrontation Clause
“commands, not that evidence be reliable, but that reliability be assessed in a particular way.”); see also
United States v. Carter, 907 F.3d 1199, 1206, n. 3 (9th
Cir. 2018) (recognizing that “[t]he vitality of Craig itself is questionable in light of the Supreme Court’s
later decision in Crawford); State v. Thomas, 2016
NMSC 24, 376 P3d 184, 193 (2016) (stating that
“Crawford may call into question the prior holding in
Craig to the extent that Craig relied on the reliability
of the video testimony”). However, even though lower
courts have doubted Craig, and the Michigan Supreme Court has limited Craig to its facts in Jemison,
it is only this Court that can overrule its prior precedent and/or give guidance to Craig’s scope. Rodriguez
de Quijas v. Shearson/American Express, Inc., 490
U.S. 477, 484 (1989). Because that has not happened,
state trial courts continue to rely on Craig to allow

30
remote testimony, and many state appellate courts
have approved these practices, expanding Craig well
beyond its narrow facts even after Crawford.
III. THIS CASE IS AN EXCELLENT VEHICLE
FOR DETERMINATION OF THE QUESTIONS PRESENTED
This case comes on direct appeal, there is no
jurisdictional issue, and the questions presented are
cleanly preserved below. The Virginia Court of Appeals in its published opinion made no finding of
harmless error and squarely addressed the questions
presented, making clear findings that Craig is good
law and upholding the Constitutionality of Virginia’s
remote testimony statute, which that court acknowledged is broader than the statute this Court considered in Craig. As such, this case would permit the
Court to address the continued vitality of Craig, and
if found to be valid, define its scope. In doing so, the
Court could provide much needed guidance on the
procedural mandates of the Confrontation Clause in
light of state statutes with varying standards of proof
to determine whether a witness may testify remotely
and the multiplicity of procedures of how the Confrontation rights of the accused can be exercised or
abridged.
This case also underscores how easily a criminal defendant’s right to face-to-face confrontation can
be “virtually” diminished under the Craig test where
the opinion of a social worker that the child would suffer emotional trauma if required to testify in open
court was enough to abridge the Petitioner’s right to
face-to-face confrontation—even though the social
worker had apparently no knowledge of any scientific

31
literature on the subject of children testifying in court
and no actual knowledge that the Z.C. could not testify in court or that Z.C had any negative feelings toward his father. Likewise, this case exemplifies how
dramatically the Confrontation right can be circumscribed by remote testimony. In Virginia, like in other
states, not only is the child witness not required to
view the accused when testifying remotely but the
child is not even required to know that he is testifying
in a criminal trial, let alone against his own father on
trial for murder.

CONCLUSION
For the foregoing reasons, the petition for a
writ of certiorari should be granted.
Respectfully submitted this 4th day of January, 2021.
Joseph King
Counsel of Record
KING, CAMPBELL & PORETZ PLLC
108 N. Alfred Street, 2nd Floor
Alexandria, Virginia 22314
(703) 683-7070
jking@kingcampbell.com
Lauren LeBourgeois
108 N. Alfred Street, 2nd Floor
Alexandria, Virginia 22314
(703) 683-7070
emery.laurenk@gmail.com
Counsel for Petitioner

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Order of
The Supreme Court of Virginia
Re: Denying Petition for Appeal
entered February 27, 2020 ............................ 1a
Published Opinion of
The Court of Appeals of Virginia
Re: Affirming Appellant’s Convictions
entered June 4, 2019 ...................................... 2a
Sentencing Order of
The Circuit Court of Loudoun County
entered December 30, 2016 ......................... 90a
Order of
The Honorable Stephen E. Sincavage
Re: Two Way Closed Circuit Television Testimony
entered April 8, 2016 ................................... 94a
Order of
The Supreme Court of Virginia
Re: Denying Petition for Rehearing
entered August 5, 2020 .............................. 100a
Va. Code § 18.2-67.9 ............................................. 101a

1a
ENTERED FEBRUARY 27, 2020
VIRGINIA:
In the Supreme Court of Virginia held at
the Supreme Court Building in the City of
Richmond on Thursday the 27th day of February,
2020.
Braulio M. Castillo,
against

Appellant,

Record No. 191028
Court of Appeals No. 0140-17-4

Commonwealth of Virginia,

Appellee.

From the Court of Appeals of Virginia
Upon review of the record in this case and
consideration of the argument submitted in
support of the granting of an appeal, the Court
refuses the petition for appeal.
Justice Chafin took no part in the resolution
of the petition.
A Copy,
Teste:
By::

2a
ENTERED JUNE 4, 2019
COURT OF APPEALS OF VIRGINIA:
Present: Chief Judge Decker
Judge Malveaux and Senior Judge Haley
Argued at Fredericksburg, Virginia
BRAULIO MARCELO CASTILLO,
S/K/A BRAULIO MARCELLO CASTILLO
v.

Record No. 0140-17-4

COMMONWEALTH OF VIRGINIA
PUBLISHED OPINION BY
JUDGE MARY BENNETT MALVEAUX
JUNE 4, 2019
FROM THE CIRCUIT COURT OF
LOUDOUN COUNTY
Stephen E. Sincavage, Judge
Thomas K. Plofchan, Jr. (Westlake Legal Group,
on briefs), for appellant.
Eugene P. Murphy, Senior Assistant Attorney
General (Mark R. Herring, Attorney General,
on brief), for appellee.
Braulio M. Castillo (“appellant”) was convicted
of first-degree murder, in violation of Code § 18.2-32,
burglary with the intent to commit murder, in violation
of Code § 18.2-90, and violation of a protective order, in
violation of Code § 16.1-253.2. On appeal, he
challenges several of the trial court’s decisions: (1) the
On January 1, 2019, Judge Decker succeeded Judge
Huff as chief judge.

3a
denial of his motion to sever the protective order
violation and the admission of the protective order; (2)
the refusal to strike Juror Colbert for cause and to
properly examine Juror Anderson; (3) the finding that
he waived attorney-client privilege concerning notes
found on his iPhone; (4) the admission of “cadaver dog”
evidence; (5) the denial of motions for mistrial based
upon prosecutorial misconduct; (6) allowing for the
testimony of a child via closed-circuit television; (7) the
admission of testimony regarding his exercise of his
right to remain silent; (8) the limitation of crossexamination of certain Commonwealth witnesses; (9)
the denial of his motion to set aside the verdict based
upon a Brady violation; and (10) the refusal to review
notes from an interview in camera. Finding no error,
we affirm.
I. BACKGROUND
Appellant and the victim, Michelle Castillo,
were married and lived in a home in Ashburn,
Virginia. They had four minor children, V.C., J.C.,
Z.C., and B.C., and an adult child, Nicholas, who lived
away from home at college. The victim and appellant
separated in March 2013. At that time, the victim
petitioned for and was granted a protective order on
behalf of herself and the minor children. The order
required appellant to “refrain from committing
further acts of family abuse.” The protective order
also gave the victim legal custody of the children and
possession of the marital residence. Appellant was
allowed to see the children for dinner on Wednesday
nights and on every other weekend but was prohibited
from entering the residence.

4a
Two to four weeks after entry of the protective
order, the victim filed for divorce. She requested
spousal support and child support. Her divorce
attorney described the divorce as “hotly contested,”
and testified that he believed the victim was eligible
for a combined total of $14,000 to $20,000 a month in
child support and spousal support. On March 14,
2014, the parties appeared in court for a pendente lite
hearing, which was continued to May. The victim’s
demeanor in court on March 14 was “happy,” and she
was observed smiling and laughing.
The following day, the victim, who had trained
as a triathlete after separating from appellant, ran a
marathon and qualified for the Boston Marathon.
She planned to compete in an Iron Man competition
in November 2014, and her friends stated that she
was excited about her plans and upcoming travel.
On the evening of March 19, 2014, the victim
met several members of her triathlon team at a
restaurant. She appeared happy and excited that she
had qualified for the Boston Marathon. The victim left
the restaurant to pick up her children from visitation
with appellant.
The minor children had been visiting appellant
for dinner that night at his house, which was
approximately a thousand yards from the victim’s
home. Lucy Fuentes, appellant’s sister, was also at
the dinner, and she left appellant’s house at 8:05 p.m.
and drove the children to meet the victim at a Harris
Teeter grocery store a few miles away.
Security footage from a neighbor’s house
showed a male jogger arriving at the victim’s home
and walking up the driveway about ten minutes

5a
before the victim arrived with the children. Although
the jogger’s face is unidentifiable from the video,
Nicholas Castillo and David and Stephanie Meeker,
friends of the Castillos, identified the jogger as
appellant based on the jogger’s unusual gait.
The following morning, the children woke up
and discovered the victim was missing. In the victim’s
bedroom, J.C. noted that the bed had been made up
“messily” and without the victim’s usual care. Several
other witnesses also testified that the bed was not
made in the manner typical of the victim. J.C. had to
pick the locks to enter the victim’s bathroom, where
he found the shower running with no one in it. J.C.
called appellant and told him he could not find the
victim.
A little after 7:00 a.m., appellant knocked on
the door of the victim’s neighbor, Ahmed Qureshi, and
told him that the victim was missing. Qureshi noticed
that appellant was wearing sunglasses and that it
appeared there was “something around” his left eye.
Because appellant was prohibited from entering the
victim’s home, he asked Qureshi to accompany him to
the residence. There, Qureshi quickly checked the
exterior before entering to find appellant upstairs
examining the victim’s bedroom. After appellant
came downstairs and joined the children in the
kitchen, Qureshi asked J.C. if anyone had searched
the basement. Appellant responded that they had
already searched that area. Qureshi stated that they
needed to call 911, but appellant told him that he
needed to get the children to school and left with
them. Qureshi returned home, called 911, and
reported that the victim was missing.

6a
Law enforcement officers arrived at the
residence and searched the basement, where they
discovered the victim hanging from a shower head in
a bathroom. The victim was wearing a sweatshirt.
Detective Mark McCaffrey with the Loudoun
County Sheriff’s Office and the lead investigator in
the case, called appellant that morning and told him
that he needed to speak with him about the victim’s
disappearance. Appellant stated that he was taking
care of his son and would call back. McCaffrey drove
to appellant’s house and informed him of the victim’s
death. Appellant expressed no emotion when he
learned this information and did not ask any
questions about the circumstances of his wife’s death.
McCaffrey noticed that appellant had a black eye and
a fresh scrape under his eye.
The medical examiner, Dr. Constance
DiAngelo, testified that the manner in which the
victim died was inconsistent with suicide. DiAngelo
found multiple bruises and abrasions on the victim’s
body and stated that such bruises were “very, very
unusual” in suicide cases. She also stated that it was
very unusual to find a suicide victim’s hair
underneath the noose, as in this case. DiAngelo
opined that the injuries to the victim’s neck and face
indicated that she died as a result of suffocation and
strangulation involving elements of both manual and
ligature strangulation. DiAngelo testified that she
found two ligature marks on the victim’s neck: a
deeper, horizontal mark that was consistent with
strangulation at the time of death, and a more
shallow mark with a different orientation which was
consistent with the victim being hung in the shower
after death.

7a
The Virginia Department of Forensic Science
analyzed bloodstains found on the victim’s bed linens
and the sweatshirt she was wearing and identified the
presence of appellant’s DNA. One of the victim’s
friends identified the sweatshirt as belonging to the
victim. The victim’s housekeeper testified that she
had not seen appellant in the home following the
issuance of the protective order a year earlier.
Two victim recovery dogs were deployed inside
the victim’s home seventeen days after her death.
Morse, commonly referred to as a “cadaver dog,” was
trained to alert to the odor of human decomposition
and large quantities of dried blood; Keela, the second
dog, was trained to detect the odor of smaller
quantities of dried blood. Morse immediately alerted
to the basement bathroom where the victim’s body
was found and later alerted to a carpeted area at the
base of the victim’s bed. Keela was “detailed” to the
carpeted area where Morse had alerted, but she did
not alert. She only alerted to the victim’s underwear
drawer.
A crime scene investigator with the Loudoun
County Sheriff’s Office testified that he was unable to
obtain fingerprints from the walls of the basement
shower despite the fact that ceramic tile similar to the
ones in the shower typically made obtaining prints
easy. Nicholas Castillo testified that he had visited
his mother and used her basement shower the
weekend before her death.
On March 21, 2014, the day after the victim’s
body was discovered, appellant called his orthodontist
to report that he had a broken braces bracket and to
schedule an appointment to repair it. The

8a
orthodontist testified that a bracket will become loose
after external pressure or force is applied to either the
tooth or the bracket.
J.C., who was eleven at the time of trial,
testified that in the year preceding the victim’s death,
appellant had asked him for the passcode to the
victim’s home security system. The victim had
changed the code after appellant moved out. J.C. gave
appellant the code, but then told the victim, who
changed it again. When appellant later inquired
about the passcode, J.C. refused to provide it, even
after appellant told him that he would give him a gold
coin in order to obtain the code. J.C. stated that his
refusal to provide the code angered appellant.
Z.C., who was eight at the time of trial, testified
that on the night of March 19, 2014, he returned to
the victim’s home after dinner at appellant’s house
and slept with the victim for part of the night, but
then went to sleep with his brother J.C. He left his
blanket in the victim’s bed. Z.C. testified that
appellant brought him his blanket that night while he
was in J.C.’s room.
Eight days after the victim’s death, appellant
filed a motion to dissolve the divorce. Having survived
the victim, appellant became sole owner of the marital
estate, the value of which was estimated at between
$2.6 and $3.6 million.
On June 20, 2016, the jury found appellant
guilty of first-degree murder, burglary, and violation
of a protective order.

9a
II. ANALYSIS
A. Severance / Protective Order
A grand jury indicted appellant on three
charges: murder in the first degree, in violation of
Code § 18.2-32; burglary with the intent to commit
murder, in violation of Code § 18.2-90; and violation
of a protective order, in violation of Code § 16.1-253.2.
Prior to trial, appellant filed a motion to sever the
violation of a protective order charge. After hearing
argument, the court denied the motion to sever,
finding that the offenses were based on the same act
or transaction and that justice did not require
separate trials.
The protective order was entered into evidence
at trial. The order reflected that it was in effect at the
time of the victim’s death. The protective order listed
the victim as the petitioner for the order, which was
also granted on behalf of the parties’ minor children.
The order stated that the court had found that the
victim had “proven the allegation of family abuse by a
preponderance of the evidence” and ordered appellant
to “refrain from committing further acts of family
1
abuse.” The order granted the victim the exclusive
possession of the marital residence and ordered
2
appellant to “stay away” from the property.

Code § 16.1-228 defines “family abuse” as “any act
involving violence, force, or threat that results in bodily injury
or places one in reasonable apprehension of death, sexual
assault, or bodily injury and that is committed by a person
against such person’s family or household member.”
1

When the Commonwealth asked the court to admit the
protective order at trial, counsel for appellant argued that the
2

10a
Discussion
Appellant argues that the trial court erred by
denying his motion to sever the violation of a
protective order charge from the murder and burglary
3
charges and in admitting the protective order.
“Whether different offenses should be tried
separately is a matter that rests within the sound
discretion of a trial court. Thus, a trial court’s ruling
on the matter will not be reversed absent a showing
that the court abused its discretion.” Cheng v.
Commonwealth, 240 Va. 26, 33-34 (1990).
Rule 3A:10(c) allows cases to be joined for trial
if justice does not require separate trials and either
“the accused and the Commonwealth’s attorney
consent” or “the offenses meet the requirements of
Rule 3A:6(b).” “Under Rule 3A:6(b), two or more
offenses may be joined in a single indictment ‘if the
offenses are based on the same act or transaction, or
on two or more acts or transactions that are [a.]
connected or [b.] constitute parts of a common scheme
or plan.’” Scott v. Commonwealth, 274 Va. 636, 644
(2007) (quoting Rule 3A:6(b)). Therefore, if a
order itself did not need to be admitted and stated that he was
“fine” with the court instructing the jury about the protective
order. Counsel also asked that, if the court was going to admit
the court order itself, it redact the judge’s signature on the order,
because the judge that issued the protective order was the same
judge presiding at trial. The court redacted the signature and
entered the order, which was redacted in this manner. Counsel
did not ask the court to redact the order’s “family abuse”
language.
Appellant did not object to the court trying the murder
and burglary cases together.
3

11a
defendant does not consent to joinder, the
Commonwealth must establish that the offenses were
either part of the same act or transaction or part of a
common scheme or plan and that justice does not
require separate trials.
We conclude that the three charged offenses
met Rule 3A:6(b)’s requirements for joinder because
all three offenses were clearly “based on the same act
or transaction.” Appellant broke into the victim’s
house in violation of the protective order with the
intent to murder her. He did not leave the residence
until he had committed the murder. Each offense
took place at the same location and at the same time.
Finding the offenses meet the “same act or
transaction” requirement under Rule 3A:6(b), we
must now determine whether justice required
appellant to have separate trials.
“Justice requires separate trials where the
evidence of one of the crimes is not admissible in the
trial of the other.” Godwin v. Commonwealth, 6 Va.
App. 118, 123 (1988).
Generally, “[e]vidence of other independent
acts of an accused is inadmissible if relevant only to
show a probability that the accused committed the
crime for which he is on trial because he is a person of
bad
or
criminal
character.”
Sutphin
v.
Commonwealth, 1 Va. App. 241, 245 (1985).
However, such evidence is admissible when it is
“relevant to an issue or element in the present case.”

12a
Id. Accordingly, evidence of an accused’s prior bad
acts may be properly admitted
4

(1) to prove motive to commit the crime
charged; (2) to establish guilty
knowledge or to negate good faith; (3) to
negate the possibility of mistake or
accident; (4) to show the conduct and
feeling of the accused toward his victim,
or to establish their prior relations; (5) to
prove opportunity; (6) to prove identity
of the accused as the one who committed
the crime where the prior criminal acts
are so distinctive as to indicate a modus
operandi; or (7) to demonstrate a
common scheme or plan where the other
crime or crimes constitute a part of a
general scheme of which the crime
charged is a part.
Quinones v. Commonwealth, 35 Va. App. 634, 640
(2001) (quoting Lockhart v. Commonwealth, 18 Va.
App. 254, 259, opinion withdrawn and vacated on
other grounds on reh’g en banc, 19 Va. App. 436
In the instant case, while the protective order does not
identify any specific act that justified the issuing court’s finding
that appellant committed family abuse, it permits the inference
that appellant engaged in prior misconduct, and thus requires
treatment as “prior bad acts” evidence. See Price v. State, 245
S.W.3d 532, 537 (Tex. App.--Houston [1st Dist.] 2007) (“While
the protective order does not identify any specific act that
justified the issuing court’s finding that [defendant] committed
family violence, it permits the inference that [defendant]
engaged in prior misconduct that is not alleged in either
indictment, and thus requires treatment as extraneous offense
evidence.”).
4

13a
(1994), aff’d, 251 Va. 184 (1996)); see also Va. R. Evid.
2:404(b).
This list is neither exhaustive
nor definitive; intent, general (as
opposed to guilty) knowledge, agency,
premeditation and other elements of
criminal acts are all subsumed within
the exceptions to the general rule and
may be shown by prior bad act evidence
when relevant to prove a material
element or issue of the crime charged.
Lafon v. Commonwealth, 17 Va. App. 411, 417 (1993).
Further, we note that Virginia law “follows an
‘inclusionary approach’ to the uncharged misconduct
doctrine by admitting such evidence ‘if relevant, for
any purpose other than to show a mere propensity or
disposition on the part of the defendant to commit the
crime.’” Thomas v. Commonwealth, 44 Va. App. 741,
757 n.8 (quoting Kent Sinclair, Joseph C. Kearfott,
Paul F. Sheridan, & Edward J. Imwinkelried,
Virginia Evidentiary Foundations § 6.4[A], at 165
(1998)), adopted upon reh’g en banc, 45 Va. App. 811
(2005).
Applying the principles outlined above, we
conclude that the protective order itself was
admissible in both the first-degree murder trial and
burglary trial.
To sustain the charge of first-degree murder,
the Commonwealth had to show that appellant
committed a “willful, deliberate, and premeditated
killing.” Code § 18.2-32. The Commonwealth’s theory
of the case was that appellant willfully killed the
victim by entering the marital home in violation of the

14a
protective order and then murdering her in her
bedroom. Here, the protective order was admissible to
prove appellant’s opportunity to commit the murder.
The protective order demonstrated that appellant had
been barred from entering the marital residence for
the prior year. However, appellant’s DNA was
recovered from bloodstains found on the victim’s bed
linens and the sweatshirt she was wearing. The
protective order shows that it was unlikely he had
entered the residence prior to the night of the murder,
and thus tended to prove that his DNA found in the
bedroom was a result of his presence in the victim’s
bedroom the night of her death.
Because the
protective order was relevant to show that there was
no reasonable explanation for the presence of
appellant’s DNA on the victim’s clothing and bedding
other than his presence in her bedroom on the night
of the murder, it served a purpose “other than to show
a mere propensity or disposition on the part of the
defendant to commit the crime.” Thomas, 44 Va. App.
at 757 n. 8 (quoting Sinclair, supra, at 165).
We further find that the protective order was
admissible in the trial for burglary. Code § 18.2-90
provides, in pertinent part, that “[i]f any person in the
nighttime enters without breaking or in the daytime
breaks and enters . . . a dwelling house . . . with intent
to commit murder, rape, robbery or arson . . . he shall
be deemed guilty of statutory burglary.” The
protective order prohibiting appellant from entering
the marital residence demonstrated that appellant
acted without authority in entering the home. Thus,
the protective order was relevant “to establish guilty
knowledge or to negate good faith.” Quinones, 35 Va.
App. at 640 (quoting Lockhart, 18 Va. App. at 259);
see also Turner v. Commonwealth, 33 Va. App. 88, 94-

15a
95 (2000) (rejecting defendant’s argument that he
could not be guilty of burglary because he and his wife
jointly owned the property he was accused of breaking
and entering while he was under court order to have
no contact with wife).
We conclude that the protective order would
have been admissible in both the murder and
burglary trials as it was relevant to an issue or
element in each of those cases. However, in order to
meet the test for admissibility as other bad acts
evidence, the evidence also must be otherwise
admissible. “Admission of evidence of other crimes
committed by a defendant . . . is subject to the further
requirement that the legitimate probative value of the
evidence must exceed the incidental prejudice to the
defendant.” Rose v. Commonwealth, 270 Va. 3, 11
(2005). “[T]he responsibility for balancing the
competing considerations of probative value and
prejudice rests in the sound discretion of the trial
court. The exercise of that discretion will not be
disturbed on appeal in the absence of a clear abuse.”
Ortiz v. Commonwealth, 276 Va. 705, 715 (2008)
(quoting Spencer v. Commonwealth, 240 Va. 78, 90
(1990)).
Appellant argues that the protective order
would not have been admissible in the murder and
burglary trials because the evidence was unduly
prejudicial. He contends that even if the parties’
marital issues were relevant, the existence of those
issues was genuinely uncontested given that the
parties were divorcing. Thus, any probative value of
the protective order was outweighed by the danger of
prejudice to appellant, making the evidence
inadmissible. We disagree.

16a
As noted above, the protective order was
admissible not merely as evidence of marital issues,
but also to prove opportunity and establish guilty
knowledge or negate good faith. Although the
protective order reflected that appellant had
committed a prior act of family abuse, which might
have had an adverse effect on him, we cannot say that
the trial court abused its discretion in finding that the
substantial probative value of the evidence would
have outweighed any prejudicial effect.
Because the three charged offenses met the
requirement of Rule 3A:6(b) and justice did not
require separate trials, the joinder requirements of
Rule 3A:10(c) were met. We hold, therefore, that the
trial court did not abuse its discretion in denying
5
appellant’s motion for separate trials.

Appellant further argues under this assignment of
error that the admission of the protective order was error
because it was granted under a civil preponderance of the
evidence standard, yet was used in a criminal context. Appellant
provides no support for this argument and we find it
unpersuasive, as we find no reason to examine the protective
order in a different manner than we do for all other prior bad
acts evidence generally.
5

Further, in this case, the court that issued the protective
order found by clear and convincing evidence that appellant had
committed an act of family abuse.
While we make no
determination on the exact standard of proof that must be
applied by a court in determining whether to admit evidence of
prior bad acts, we find that any standard would be satisfied by a
clear and convincing finding by a circuit court. See Pavlick v.
Commonwealth, 27 Va. App. 219, 227-28 (1998) (noting that
“[n]o Virginia court has directly addressed the issue of the
standard of proof that must be applied by a judge in determining
whether to admit evidence of prior bad acts,” but finding that if

17a
B. Jury Issues
During voir dire, counsel for appellant asked
the entire venire a series of questions, including
whether anyone knew someone who had either
attempted or committed suicide. Prospective Juror
Colbert responded that he did. During individual voir
dire conducted outside the presence of the rest of the
venire, Colbert stated that his neighbors had “some
history of domestic violence” and that less than two
months prior to trial, his female neighbor had hanged
herself in a closet. When he learned of his neighbor’s
death, he immediately thought it murder rather than
suicide. Although he had called the police, there “was
no investigation done” and it was “swept under the
rug.” Colbert was “suspicious of that.” When asked
to explain his statement that there “was no
investigation done,” Colbert explained that he was
out of town when the death occurred, but that when
he returned, no one called him or his fiancée to see if
they knew anything about the incident. His fiancée
had called the police and briefly talked to them, but
they did not follow up with her. Colbert had
immediately thought it murder rather than suicide
when he learned of his neighbor’s death. Counsel for
appellant asked Colbert if he was “going to be able to
separate things and keep this terrible experience or
in any way separate it out from any evaluation of the
case here?” Colbert replied, “Yeah, I believe so,”
because his neighbor “had a history of mental illness,
and . . . so even though there was some suspicion . . .,
I think there was [sic] experts that could look at these
prior bad acts evidence involves a credibility determination, that
question is properly reserved for the jury).

18a
things and advise on what actually took place, so . . .
.”
Colbert also told the court that his fiancée had
been a victim of domestic violence in the past.
Counsel for appellant asked Colbert whether this fact
or his fiancée’s feelings about the neighbor’s death
would put any pressure on him if his fiancée knew he
was on the jury, and he responded, “No.”
Counsel for appellant moved to strike Colbert
in light of his statement that he thought his
neighbor’s death was murder rather than suicide, and
because he was so closely involved with the death that
“it would be extremely difficult for him to ultimately
remove himself from that.” Colbert was recalled for
further questioning, and the court asked him if the
“entirety of the circumstances” that he had discussed
would affect his ability to “judge this case solely on
the evidence that is before [him].” Colbert stated that
he had come to “a suspicion and a judgment” about his
neighbor because he had “witnessed . . . and heard
things” himself, where in contrast “[i]n a case where I
know nothing, and there is stuff presented from either
side, I have no . . . personal involvement, so I would
listen to both sides and know that suicide is possible,
murder is possible.” He further stated, “I think I can
listen fairly and make a judgment based on what was
presented.” The court denied appellant’s motion to
strike the juror for cause, finding that the further
answers given by Colbert clearly demonstrated that
“he would be able to deal with this case on the
evidence in this case.” Colbert served on the jury.
At the end of the sixth day of trial, the court
excused the jury for the day. After the jury had left

19a
the courtroom and entered the jury room, counsel for
appellant told the court that while the door was open
he could hear one of the jurors “crying to the extent of
howling.” He could “hear it through the door” even
after the door was closed. The court stated that court
personnel were separating Juror Anderson, the juror
who was crying, from the rest of the jury. Counsel for
appellant asked the court to question Anderson as to
her emotional display, arguing that it would be proper
to inquire whether she could follow the court’s
instructions to hear all the evidence before making a
decision in the case. The court declined to adopt
appellant’s proposed line of questioning, and instead
brought Anderson back into court and asked her if she
was suffering from any medical condition that would
prevent her from serving as a juror. She responded in
the negative.
Prior to the commencement of the next day of
trial, the court announced that it would further
question Juror Anderson. The court also told counsel
that a bailiff had informed the court that Anderson
had commented that “she was now able to breathe”
and that it had seemed to Anderson “that the witness
wasn’t able to breathe.” The witness who had
testified immediately prior to the crying reported by
appellant’s counsel was J.C., appellant’s eleven-yearold son. The court questioned Anderson about her
statement to the bailiff, and she stated that she
“might have held [her] breath there for a minute . . .
because of the anguish” and that she thought the
witness was not able to breathe because he had
started to cry. She “felt very emotional towards that.”
The court then asked Anderson several additional
questions about her feelings and her ability to remain
impartial throughout proceedings, in light of “the

20a
noise we heard when the [c]ourt was closed.”
Anderson replied that her ability to remain impartial
was “positive” and that her “ability right now does not
lean one way or the other.” After stating that her
ability to remain impartial did not lean toward either
side, Anderson made a further unprompted statement
about her impartiality to the court, and the court then
asked further questions of the juror.
ANDERSON: I’m still here to observe
the witnesses and the evidence in the
case, to determine the outcome. And so
nothing that has happened so far or
what happened to me -THE COURT: Okay. Can you speak to
-- ANDERSON: -- will deter me.
THE COURT: I’m sorry, I didn’t mean
to cut you off.
ANDERSON: Will deter me. Will deter
my impression.
THE COURT: Okay.
ANDERSON: My ability.
THE COURT: Okay. Can you speak to
us about your ability to
set aside any emotions that you may
have and keep an open mind ANDERSON: My ability to set aside my
emotions are better. Uh-huh.

21a
THE COURT: Is what?
ANDERSON: My abilities to set aside
my emotions are better. I think I have a
little bit more control.
THE COURT: Better than what? I just
want to -- ANDERSON: Than Friday.
THE COURT: Okay.
ANDERSON:
mentally.

I’m

more

prepared

THE COURT: My question has to do
with any emotions that you have and
how they would affect your ability to
fairly and impartially hear the evidence
in this case.
ANDERSON: I am very -- I am very
clear minded. My emotions will not
cloud my decision or my -- or my ability
to hear the evidence and hear the
witnesses.
THE COURT: Okay. And are you at this
time and throughout the trial able to
withhold making any fixed or firm
formed opinions about [appellant’s] guilt
or innocence -ANDERSON: Absolutely.
THE COURT: -- let me finish the
question -- until you [have] heard all the
evidence in the case?

22a
ANDERSON: Until I have heard all the
evidence in the case, yes.
Following this exchange, counsel for appellant
moved to strike Anderson for cause. The court denied
the motion, noting that the juror had stated that she
was able to remain impartial. The court also noted
that the juror’s behavior had been normal while court
was in session. The court stated that while Anderson
had “spoken of anguish and having to hold her
breath,” it could not “get behind what the cause of
that anguish was.”
Discussion
Appellant contends the trial court erred by
denying him an impartial jury by refusing to strike
Jurors Colbert and Anderson for cause.
It is well established that “the right of an
accused to trial by ‘an impartial jury’ is a
constitutional right, reinforced by legislative mandate
and by the Rules of this court.” Justus v.
Commonwealth, 220 Va. 971, 975-76 (1980). “Code
§ 8.01-357 assures a defendant a right to an impartial
jury drawn from ‘a panel [of not less than twenty] free
from exceptions.’” Id. at 975 (quoting Breeden v.
Commonwealth, 217 Va. 297, 300 (1976)). To qualify
as a juror, a prospective juror must “stand indifferent
in the cause.” Code § 8.01-358. If a juror “does not
stand indifferent to the cause, he is not competent. If
he has any interest in the cause, or is related to either
party, or has expressed or formed any opinion, or is
sensible of any bias or prejudice, he is excluded by the
law.” Taylor v. Commonwealth, 67 Va. App. 448, 454
(2017) (quoting Spangler v. Ashwell, 116 Va. 992, 99697 (1914)); see Griffin v. Commonwealth, 19 Va. App.

23a
619, 621 (1995) (explaining that “the test of
impartiality is whether the venireperson can lay aside
the preconceived views and render a verdict based
solely on the law and evidence presented at trial”).
“Juror impartiality is a question of fact.”
Huguely v. Commonwealth, 63 Va. App. 92, 121
(2014) (quoting Lovos-Rivas v. Commonwealth, 58
Va. App. 55, 61 (2011)). “Whether a venireman can
lay aside a preconceived opinion and render a verdict
solely on the evidence is a mixed question of law and
fact. Resolution of the question rests within the
sound discretion of the trial court.” Calhoun v.
Commonwealth, 226 Va. 256, 258 (1983). “[T]he trial
court must weigh the meaning of the answers given
in light of the phrasing of the questions posed, the
inflections, tone, and tenor of the dialogue, and the
general demeanor of the prospective juror.” Smith v.
Commonwealth, 219 Va. 455, 464-65 (1978). Further,
evidence of a prospective juror’s impartiality
“should come from him and not be based on his
mere assent to persuasive suggestions.” Bradbury v.
Commonwealth, 40 Va. App. 176, 181 (2003) (quoting
McGill v. Commonwealth, 10 Va. App. 237, 242
(1990)).
Although we review the trial court’s
determination deferentially, “any reasonable doubt as
to a juror’s qualifications must be resolved in favor of
the accused.” Breeden, 217 Va. at 298. “In conducting
our review, we consider the juror’s entire voir dire,
not merely isolated statements.” Lovitt v.
Commonwealth, 260 Va. 497, 510 (2000). We will
disturb the trial court’s decision regarding juror
impartiality “only upon a showing of manifest error.”
Weeks v. Commonwealth, 248 Va. 460, 475 (1994).

24a

1. Juror Colbert
Appellant argues that Colbert’s voir dire
revealed his bias. Appellant specifically points to (1)
Colbert’s statement that he “th[ought] [he] c[ould]
listen fairly and make a judgment based on what was
presented,” and (2) the timing and similarity of his
neighbor’s death in relation to the allegations
presented at trial. He contends that both combined to
raise a reasonable doubt as to Colbert’s impartiality.
While appellant emphasizes Colbert’s use of
the word “think,” characterizing his response as too
equivocal to ensure his impartiality, we note that “the
word ‘think’ can have different meanings depending
on one’s demeanor, emphasis, and tone of voice—and
. . . such contextual determinations must be made by
the trial court during voir dire.” Huguely, 63 Va. App.
at 125. Further, in the context of statements made
during voir dire, “[w]here the record does not indicate
inflection and tone, we view the statements in the
light most favorable to the Commonwealth.” Taylor,
67 Va. App. at 460 n.2. Viewed in the light most
favorable to the Commonwealth, we construe
Colbert’s use of “think” to support a finding that his
whole statement to the court—“I think I can listen
fairly and make a judgment based on what was
presented”—indicated that he was able to listen fairly
and judge based upon the evidence. This finding is
further supported by the context surrounding
Colbert’s statement. Colbert made his statement
after he was asked whether his past experience with
suicide would influence his ability to weigh the
evidence in this case. His response was that unlike

25a
his prior experience, he had no firsthand knowledge
of the facts of this case and “would listen to both sides
and know that suicide is possible, murder is possible.”
These statements, viewed together in context,
demonstrate that Colbert’s “I think” statement was
not too equivocal to ensure his impartiality.
Appellant’s additional argument that Colbert
was biased because of the recent timing and
similarity of his neighbor’s death is likewise
unsupported by the record. Colbert was specifically
asked by counsel for appellant if he would be able to
separate his past experience from the current case,
and Colbert replied that he believed he would. He
also stated that any feelings his fiancée might have
about the neighbor’s death would not put pressure on
him to decide the case in a certain way. Based upon
these answers, viewed together with Colbert’s other
statements that he would listen to both sides, knew
that both suicide and murder were possible, could
listen fairly, and would make a judgment based on the
evidence presented, we cannot say the record as a
whole demonstrates that Colbert was biased in this
matter because of his neighbor’s death. Thus, we find
that the trial court did not abuse its discretion in
6
refusing to strike Colbert for cause.
Appellant also argues that Colbert should have been
struck for cause because of his statement that “he would rely
upon expert testimony to decide the ultimate issue.” However,
the record before us reveals that appellant never raised this
specific issue before the trial court. “This Court has said ‘[t]he
primary function of Rule 5A:18 is to alert the trial judge to
possible error so that the judge may consider the issue
intelligently and take any corrective actions necessary to avoid
unnecessary appeals, reversals and mistrials.’” Neal v.
Commonwealth, 15 Va. App. 416, 422 (1992) (alteration in
6

26a
2. Juror Anderson
Appellant also argues that Anderson, in the
mid-trial voir dire, did not provide unqualified
assertions of impartiality. He alleges that Anderson
did not unequivocally state that she could set aside
her emotions and keep an open mind, and only
informed the court that her ability was “better” than
it had been the previous day at trial.
However, a full examination of Anderson’s mid7
trial voir dire belies these contentions. Before
Anderson stated that her ability to set aside her
emotion was “better,” the court asked about her
ability to remain impartial, and she replied that her
“ability right now does not lean one way or the other.”
She further stated, unprompted by the court, that she
was “still here to observe the witnesses and the
evidence in the case, to determine the outcome.”
Following her statement that her ability to set aside
her emotions was “better,” the court clarified that it
was asking her about “any emotions that you have
and how they would affect your ability to fairly and
original) (quoting Martin v. Commonwealth, 13 Va. App. 524,
530 (1992)). Thus, “[n]ot just any objection will do. It must be
both specific and timely—so that the trial judge would know the
particular point being made in time to do something about it.”
Thomas, 44 Va. App. at 750. Because the requirements of Rule
5A:18 have not been met, we do not consider this argument on
appeal.
When a challenge to a juror’s impartiality arises midtrial, we “‘will reverse the trial court’s decision only for an abuse
of discretion,’ applying the ‘same standard’ of review appropriate
to appellate consideration of a decision to seat a venireperson.”
Nelson v. Commonwealth, 41 Va. App. 716, 731 (2003) (quoting
Green v. Commonwealth, 26 Va. App. 394, 401 (1998)).
7

27a
impartially hear the evidence in this case.” Anderson
replied that she was “very clear minded” and that her
“emotions w[ould] not cloud [her] decision” or “ability
to hear the evidence.” These statements support the
conclusion that Anderson remained impartial despite
her emotional response to J.C.’s testimony.
Additionally, we note that many of Anderson’s
statements regarding her emotions and impartiality
were fully expressed by her and were not “mere assent
to persuasive suggestions.” Bradbury, 40 Va. App. at
8
181 (quoting McGill, 10 Va. App. at 242).
In denying appellant’s motion to strike
Anderson from the jury panel, the trial court noted
Anderson had been able to control her emotions in the
courtroom. Further, Anderson unequivocally stated
that she could wait to form an opinion until all the
evidence was presented. The trial court observed
Anderson’s demeanor, heard her responses, and
determined she was capable of remaining impartial.
Appellant also takes issue with Anderson’s statement
that nothing would “deter [her] impression,” which he argues
suggests that she had already come to a conclusion that would
not be altered. However, read in its full context, Anderson’s
statement cannot be viewed as appellant suggests. Anderson’s
statement that nothing would “deter [her] impression” directly
followed her comment that she was “here to observe the
witnesses and the evidence in the case, to determine the
outcome.” Anderson then tells the court that “nothing that has
happened so far or what happened to me . . . . Will deter me.
Will deter my impression.” Thus, in context, Anderson’s
statement that nothing would “deter [her] impression” was her
informing the court that nothing would change her “impression,”
meaning her ability, to hear the evidence in the case as it was
presented. Read properly in its full context, it is clear from
Anderson’s statement that appellant’s argument is without
merit.
8

28a
Nothing in the record demonstrates manifest error in
the court’s finding that Anderson could impartially
9
continue her service on the jury.
C. Attorney-Client Privilege Protection of Notes
On the day the victim’s body was discovered,
Detective McCaffrey obtained a search warrant for
10
appellant’s residence.1 McCaffrey testified that while
he did not actively participate in the search, he
Appellant also asserts under this assignment of error
that the trial court erred because it “harmfully foreclosed any
voir dire by [appellant], thus limiting the record without fully
exploring the issue of partiality.” However, the record reveals
that appellant has not preserved this argument for our review.
Following Anderson’s audible crying, counsel for appellant asked
the court to inquire whether she could follow the court’s
instructions to hear all the evidence before she made a decision
in the case, but the court instead only asked the juror if she was
suffering from any medical condition that would prevent her
from serving as a juror. Appellant then filed a motion asking the
court to further question Anderson as to whether she could
continue to be impartial, set aside her emotions, and fairly
consider the evidence and arguments of both parties. In this
motion, appellant “ask[ed] the court to make that limited inquiry
and then to rule on whether or not she may continue as a juror.”
The following day of trial, the court did in fact make this inquiry
of Anderson. Following the court’s voir dire of the juror
regarding her emotional state and impartiality, appellant moved
to strike the juror based on her responses to the court’s
questioning. However, at no point did counsel for appellant ask
the trial court for the opportunity to ask additional questions of
Anderson during the court’s mid-trial voir dire. Thus, because
appellant never argued to the trial court that he should have the
opportunity to conduct his own independent voir dire, we do not
consider this argument on appeal. See Rule 5A:18.
9

McCaffrey testified that the residence was searched
pursuant to a search warrant. The search warrant itself was not
made a part of the record.
10

29a
“grabbed ahold of . . . [and] got [appellant’s] cell phone
at one point.” McCaffrey then told appellant that he
“wanted to get the pass code,” and appellant replied
he had “a secret clearance” and that his phone was
important. McCaffrey told appellant “all right, that’s
fine” and that it would “take up more time to get it
forensically analyzed” or “something along that line.”
At that point, appellant gave McCaffrey the passcode,
stating that he was “being helpful.”
At trial, the Commonwealth moved to
introduce notes found on the “Notes” application on
appellant’s iPhone. The Commonwealth’s exhibit
11
contained, among other notes, one which listed
contact information for attorneys. A second note was
entitled “Attorney Client Privilege (Affair)” and
detailed the victim’s activities and interactions with
various individuals. That note also stated that the
“document is being prepared for and in conjunction
with attorneys . . . .”
Appellant objected to the admission of the
notes, arguing that they were protected by the
attorney-client privilege, and moved for a mistrial
because “these prosecutors are tainted by this.” The
court overruled the objection based on attorney-client
privilege and denied the motion for a mistrial. The
court found that an attorney-client relationship
existed, but that appellant had waived privilege when
he provided his iPhone’s passcode to police.
The other notes included an article about divorce,
Bible verses about divorce, and short items entitled “Facebook
list,” “Ironman shopping list,” and “Michelle.” Counsel for
appellant represented that the “Facebook list” note referenced
men that the victim had been “seeing” or “was going to see.”
11

30a
During appellant’s case-in-chief, counsel for
appellant asked appellant to explain the notes found
on his iPhone. Appellant stated that the note entitled
“Attorney Client Privilege (Affair),” which detailed
the victim’s activities, was made in order to document
times at which she was busy and he, rather than the
housekeeper or nanny, could have provided child care.
Appellant also testified that he kept notes on the
victim’s possible affairs in preparation for their
divorce proceedings. He stated that he obtained the
information from the victim’s Facebook page and also
from his daughter’s iPhone.
The Commonwealth did not mention the
exhibit containing the iPhone notes in its initial
closing argument. In appellant’s closing argument,
counsel mentioned the notes, arguing that while the
Commonwealth was characterizing them as evidence
of “stalking,” appellant was merely collecting
information useful to the divorce proceedings. He also
argued that if appellant had been “following” the
victim, he would have known that she ran on a
secluded trail and that he would have had the
opportunity to murder her there. The Commonwealth
briefly referenced the notes in its rebuttal closing,
arguing that the victim would not have committed
suicide because her “old life was going to be over: [t]he
fears, the control, the stalking, the snooping into her
phone calls, the snooping into her Facebook account,
having her followed as [appellant] admitted that he
did when she went on vacation.”
Discussion
Appellant argues that that trial court erred by
finding that he had waived the attorney-client

31a
privilege and in not granting a mistrial based upon
the Commonwealth’s use of appellant’s attorneyclient privileged communications which were “seized
pursuant to a search warrant.”
Virginia law recognizes that “[c]onfidential
communications between attorney and client made
because of that relationship and concerning the
subject matter of the attorney’s employment ‘are
privileged from disclosure, even for the purpose of
administering justice.’” Commonwealth v. Edwards,
235 Va. 499, 508-09 (1988) (quoting Grant v. Harris,
116 Va. 642, 648 (1914)). The proponent of the
privilege “has the burden to establish that the
attorney-client relationship existed, that the
communications under consideration are privileged,
and that the privilege was not waived.” Id. at 509.
Based on the record, we need not decide the
more complex question of whether the trial court
erred in admitting the notes because any presumed
error committed because of their admission is
12
harmless.
“Virginia law requires that in all criminal cases
in which the appellate court finds that error occurred
in the trial court, it must consider whether the error
was harmless.” Graves v. Commonwealth, 65 Va.
App. 702, 711 (2016); see also Code § 8.01-678. “There
“As an appellate court, we seek ‘the best and narrowest
ground available’ for our decision.” Harvey v. Commonwealth, 65
Va. App. 280, 285 n.2 (2015) (quoting Armstead v.
Commonwealth, 56 Va. App. 569, 576 (2010)). With respect to
this assignment of error, we conclude that our determination
that the error, if any, was harmless constitutes the best and
narrowest ground.
12

32a
are two distinct tests for determining harmless error.
One applies when the claim involves constitutional
error and the other when it involves nonconstitutional error.” Graves, 65 Va. App. at 711. In
this case, appellant’s challenge to the admission of the
notes involves a constitutional claim—that the court’s
finding of waiver was in error because appellant could
not have consented to the search of his iPhone when
13
the iPhone was seized pursuant to a search warrant.
We acknowledge that this Court generally analyzes
the admission of evidence and whether that evidence
was protected by privilege under a non-constitutional
harmless error standard. See Castillo v. Loudoun Cty.
Dep’t of Family Servs., 68 Va. App. 547, 564 (2018).
Here, however, because the admission of the notes
involves both types of error, we analyze its admission
under the more stringent constitutional standard,
and find that any error in the admission of the notes
was harmless even under this standard.
The standard for constitutional harmless error
is well settled. “When a federal constitutional error is
involved, a reversal is required unless the reviewing
court determines that the error is harmless beyond a
reasonable doubt.” Pitt v. Commonwealth, 260 Va.
692, 695 (2000); see also Commonwealth v. White, 293
Va. 411, 420 (2017). In order to determine whether
the error was harmless beyond a reasonable doubt, we
must ask “whether there is a reasonable possibility
We assume without deciding that appellant properly
preserved a constitutional challenge on appeal, but note that
appellant never filed a motion to suppress in relation to the
iPhone, and the trial court stated that it was not making the
finding regarding waiver on a “constitutional level” because that
issue was not before it.
13

33a
that the evidence complained of might have
contributed to the conviction.” Pitt, 260 Va. at 695
(quoting Chapman v. California, 386 U.S. 18, 23
(1967)). Further, in making the determination of
whether constitutional error existed, the court must
consider, among other factors, “the importance of the
tainted evidence in the prosecution’s case, whether
that evidence was cumulative, the presence or
absence of evidence corroborating or contradicting the
tainted evidence on material points, and the overall
strength of the prosecution’s case.” Lilly v.
Commonwealth, 258 Va. 548, 551 (1999).
Here, we find that the notes had minimal, if
any, importance to the Commonwealth’s case.
Appellant himself testified to the activity set forth in
the notes, admitting that he created the note detailing
the victim’s activities in preparation for their divorce
proceedings. Further, it was counsel for appellant
who first raised the notes in closing argument,
contending that if appellant truly had been stalking
the victim, it would not have made sense for him to
have killed her at her home rather than in the woods
where she often ran alone. The Commonwealth
mentioned the notes only in passing during its
rebuttal closing, arguing that the victim was not
likely to have committed suicide because her “old
life”—including appellant’s “stalking” and “snooping
into her Facebook account”—would soon be over once
her divorce was final.
Moreover, overwhelming evidence established
appellant’s guilt, demonstrating the overall strength
of the Commonwealth’s case. Three individuals—two
friends of appellant and appellant’s adult son—
identified appellant from security footage as the

34a
person who approached the victim’s home on the night
of her death. Z.C., another of appellant’s sons,
testified that he had seen his father in the victim’s
home the night of the killing. Also, appellant’s DNA
was identified from bloodstains found in the victim’s
bedroom and on the victim’s sweatshirt, after
appellant had been barred from the residence
pursuant to a protective order for over a year.
Further, several points of evidence refuted appellant’s
theory that the victim committed suicide: the medical
examiner testified that the victim was strangled and
suffocated and that the manner in which the victim
died was inconsistent with suicide; the victim had
plans to travel and to engage in athletic activities; and
a cadaver dog trained to alert to the odor of human
decomposition and dried blood alerted to an area in
the victim’s bedroom, as well to the bathroom where
her body was found. Thus, based upon the record
before us, we conclude that any error in admitting the
notes found on appellant’s iPhone did not create a
reasonable possibility that the evidence complained of
might have contributed to appellant’s conviction.
Consequently, we hold that even if the trial court
erred in admitting this evidence, that error was
harmless beyond a reasonable doubt.
D. Introduction of Cadaver Dog Evidence
Appellant filed a pretrial motion to bar
evidence of blood and cadaver dog searches and alerts,
and the court heard the motion at a pretrial motions
hearing.
At this hearing, Rex Stockham, a special agent
with the Evidence Response Team within the FBI’s
Laboratory Division, was recognized as an expert in

35a
forensic K-9 operations. Stockham had written a
number of papers on human scent evidence that had
been peer reviewed and published. He was one of two
supervisors of the division’s forensic K-9 program. He
testified that victim recovery dogs, or “cadaver dogs,”
were developed to address the FBI’s need to locate
missing individuals. Stockham stated that cadaver
dogs are trained to alert to the odor of decomposing
human material and that they can alert to trace
amounts and residual odors rather than physical
14
substances. Stockham testified that the odor of
human decomposition is “[v]ery” persistent over time.
Stockham testified that he developed a cadaver
15
dog program for the FBI starting in 2005. While
developing this program, he met Martin Grime, a
National Homicide Search Advisor in the United
Kingdom who worked with cadaver dogs. In 2010 or
2011, Grime started to work with the FBI to help
develop its program. The program started seeing
improved results after Grime’s involvement. Since
the program’s establishment in 2005, Stockham had
directed hundreds of crime scenes using cadaver dogs.
Stockham testified that the FBI had
established a scientific working group, consisting of
members of the academic community, the canine
industry, and various international partners, to
develop cadaver dog best practice certification
assessment guidelines. He stated that all of the dogs
Stockham acknowledged on cross-examination that
scientists do not know what specific chemicals comprise the odor
of decomposition to which the dogs alert.
14

Stockham had previously worked with human scent
evidence dogs, typically known as “tracking dogs.”
15

36a
in the FBI program met these guidelines and were
required to pass an annual proficiency certification
assessment. They were also given routine
maintenance training to ensure that they maintained
their skills. Stockham testified that some cadaver
dogs failed out of the program because they were not
proficient.
Stockham explained that the first dog used in
this case, Morse, was part of the FBI program and had
come to the program already trained. He assessed
Morse as “[v]ery proficient” prior to the search of the
victim’s home. Morse, he noted, did not “make a lot of
mistakes.” Keela, the second dog used in the search,
was a human blood detection dog that was trained to
detect the odor of human blood, but not its residual
odor. Stockham testified that her proficiency was
“exceptional.” Stockham had never witnessed a
situation involving Morse or Keela in which their
handler, Grime, was able to cue them to alert to
something that was not there.
Martin Grime also testified at the hearing,
stating that he worked as a consultant with the
Evidence Response Team. Previously, Grime had
worked in British law enforcement for thirty years,
including as an instructor at a regional police dog
training school. He began cadaver dog detection work
in 2000, and soon initiated a victim recovery dog
training program for British law enforcement. Grime
was qualified as an expert in human remains
detection and training victim recovery dogs.
Grime brought Morse and Keela with him
when he started his consulting work with the FBI.
Both were adult dogs at the time. Grime had trained

37a
Morse from a puppy to certification and continued to
train him regularly. He explained that Morse was
first trained using scent pads which had been applied
to corpses. Morse was then trained in “operational”
scenarios, including training using known graves. At
the time of the search of the victim’s home, Morse was
certified by the FBI as a proficient cadaver dog.
Grime testified that while proficiency certifications
occurred annually, Stockham also conducted
occasional “surprise proficiency test[s].” Morse had
never failed a proficiency test conducted by the FBI at
the time the victim’s home was searched.
The Commonwealth introduced into evidence
Morse’s training records and his 2014 FBI
certification. The records reflected that Morse
participated in several training exercises from
February 2014 through April 2014, all with
“excellent” or “[v][ery] good” proficiency ratings. The
search in this case was conducted on April 4, 2014.
His yearly assessment, conducted on January 23,
2014, reflected that Morse was “very experienced” and
“trusted.”
Regarding the search of the victim’s residence,
which occurred on April 4, 2014, Stockham testified
that he directed the search with Morse and Keela.
Grime was the dogs’ handler. Stockham was told that
the victim had been found hanging in a bathroom, but
that investigators thought that the body previously
had been “stashed” somewhere else in the house. The
investigators did not tell Stockham where the body
had been previously in the house. Stockham only told
Grime that they had been asked to assist in a
homicide case, and simply instructed him to “come in
and run your dog.”

38a
When Morse entered the house, he was given a
command to search. Without being directed toward
the basement, Morse “broke” and went to that part of
the home and alerted to the bathroom in the
basement. This conduct indicated to Stockham that
there was “enough odor [there] that it drew [Morse] in
from that distance.” While searching the rest of the
home, Morse alerted to the area at the foot of the
victim’s bed. Stockham testified that Morse would
alert where he smelled the highest concentration of
16
odor.
Both Stockham and Grime were questioned
about the possibility of odor transference—meaning
whether the odor of human decomposition could be
transferred from its source to another object by
contact, and then further transferred to additional
objects by contact. Stockham testified that the odor of
human decomposition can be transferred from a
cadaver to clothing or to a person handling a body. He
acknowledged that he wrote in his incident report
from the search that human decomposition odor may
be present in or on items associated with daily living,
and as such, the dog’s positive final responses may or
may not have significance. When asked whether it
was possible that Morse’s alert at the foot of the
victim’s bed “came from activities of daily living,”
Stockham stated, “I don’t know what the alert was
from.” He later clarified on re-direct that he did not
know what combination of chemicals the dog was
relying on to give the alert, but that the dog was
Keela only alerted to the victim’s underwear drawer.
Stockham noted that if there was menstrual blood on the
underwear, Keela would alert to that, so he concluded that the
alert on the drawer was “inconsequential.”
16

39a
trained to find the odor of human decomposition.
Grime testified that transference of human
decomposition odor, either directly or indirectly,
happens “quite easily and readily.” He opined that
such transference was unlikely in this case because
Morse only alerted in two locations; if the
transference of odor had been caused by individuals
moving through the house, the dog would have
responded in more places.
Following the hearing on the matter, the trial
court issued an order denying appellant’s motion to
bar evidence of blood and cadaver dog searches and
17
alerts.
Both Stockham and Grime testified at trial in
the same manner as they did at the pretrial motion
hearing.
In addition, both opined that “to a
reasonable degree of scientific certainty,” Morse
alerted to human decomposition at the foot of the
victim’s bed.
Discussion
On appeal, appellant alleges that the trial
court erred by admitting cadaver dog evidence
because the evidence was not based on reliable
18
scientific evidence or methods. Appellant argues that

Appellant filed a motion to reconsider the admissibility
of the cadaver dog evidence, and the court by order denied the
motion to reconsider.
17

In addition, appellant argues under this assignment of
error that the court applied an incorrect legal standard by
placing the burden of proving the reliability of proffered
scientific evidence on appellant. However, appellant did not
18

40a
the science underlying cadaver dog evidence is not
reliable, and thus the trial court erred in admitting
testimony relating to this evidence.
We recognize that the admission of cadaver dog
evidence is an issue of first impression in Virginia.
However, relying on prior Virginia case law involving
dog scent evidence, we conclude that we need not
consider whether the science underlying the expert
testimony concerning the cadaver dog evidence was
reliable. Instead, we need only determine whether a
proper foundation was laid for the admission of the
evidence.
In Spencer v. Commonwealth, 240 Va. 78, 97
(1990), our Supreme Court held that “[w]hen
scientific evidence is offered, the [trial] court must
make a threshold finding of fact with respect to the
reliability of the scientific method offered, unless it is
of a kind so familiar and accepted as to require no
foundation to establish the fundamental reliability of
the system.” Appellant argues that, pursuant to
Spencer, the science underlying the expert cadaver
dog testimony was not sufficiently reliable to be
admissible. This same argument was made and
rejected by this Court in the context of dog trailing
evidence in Pelletier v. Commonwealth, 42 Va. App.
406 (2004). In Pelletier, defendant argued that the
Commonwealth failed to lay a proper foundation for
the admission of dog trailing evidence because the
detective, called as an expert witness, could not
scientifically explain the dog’s ability to discern the
age of the trail and the direction in which the suspect
raise this argument before the trial court; thus, we do not
address it on appeal. See Rule 5A:18.

41a
traveled. Id. at 417. This Court, rejecting this
contention, explained that a prior dog trailing case
from our Supreme Court, Epperly v. Commonwealth,
224 Va. 214 (1982), did not “hold that dog tracking
evidence must be explained scientifically before it can
be admitted.” Pelletier, 42 Va. App. at 419. We further
stated as follows:
Nevertheless, [defendant] contends that
all expert testimony, whether it involves
a scientific field, such as DNA analysis,
or a highly specialized one, such as dog
trailing or tracking, must be preceded by
adequate scientific explanation that
establishes its reliability. The courts of
the Commonwealth, however, routinely
allow expert testimony without a
scientific foundation where “‘the jury . . .
is confronted with issues’ that ‘cannot be
determined intelligently merely from the
deductions
made
and
inferences
drawn on the basis of ordinary
knowledge,
common
sense,
and
practical experience.’” Schooler [v.
Commonwealth], 14 Va. App. [418,] 420
[(1992)]
(quoting
Compton
[v.
Commonwealth], 219 Va. [716,] 726
[(1979)]). . . . Likewise, a clear majority
of states allows dog tracking evidence
despite the fact that the dog’s ability
cannot be scientifically explained.
Many courts have ruled that . . .
evidence of tracking a defendant
is
admissible,
subject
to
establishment
of
a
proper

42a
foundation.
Even though the
precise scientific basis for dog
tracking remains uncertain, it is
clear that such dogs can be
trained to almost unerringly
follow a trail left by particular
persons even after some time has
passed, and even though the trail
has crossed the scent left by other
persons.
Jay M. Zitter, Annotation, Evidence of Trailing
by Dogs in Criminal Cases, 81 A.L.R. 5th 563
(2003).
Epperly does not require that a
scientific foundation be laid for the
admission of dog trailing evidence.
Rather, it holds that dog trailing
evidence must be empirically shown to
be reliable from experience.
The
showing of reliability is met by
testimony from the handler establishing
that he “was qualified to work with the
dog and to interpret its responses” and
that “the dog was a sufficiently trained
and proven tracker of human scent.”
Epperly, 224 Va. at 233.
Id. at 419-20.
We conclude that this same analysis applies to
the admission of cadaver dog evidence. Cadaver dog
evidence does not require a scientific foundation for
its admission; rather, the cadaver dog evidence must
be shown to be reliable from experience, which can be
met through the testimony of the cadaver dog

43a
handler. Thus, as with dog trailing evidence in
Pelletier, cadaver dog evidence may be admitted
19
without a showing of its precise scientific basis.
Appellant also argues that, due to its lack of scientific
reliability, the cadaver dog evidence did not constitute
proper expert opinion testimony.
“It is well established that the admissibility of
expert testimony is within the sound discretion of the
trial court, and that court’s decision will not be
disturbed absent an abuse of discretion.” Schmuhl v.
Commonwealth, 69 Va. App. 281, 299 (2018) (quoting
Patterson v. Commonwealth, 3 Va. App. 1, 11 (1986)).
“The sole purpose of permitting expert testimony is to
assist the trier of fact to understand the evidence
presented or to determine a fact in issue.” Velazquez
v. Commonwealth, 263 Va. 95, 103 (2002). In a
The Michigan Court of Appeals came to a similar
conclusion in People v. Lane, 862 N.W.2d 446 (Mich. Ct. App.
2014). In Lane, a case which involved the same cadaver dog,
Morse, the Court of Appeals rejected defendant’s argument that
cadaver dog evidence could not be admitted because chemical
evidence could not corroborate whether there was human
decomposition at the locations identified by the dog. Id. at 457.
In analyzing this argument under MRE 702, Michigan’s rule of
evidence regarding the admission of expert opinion testimony on
areas of specialized knowledge, the Court of Appeals held that a
lack of scientific verification of the presence of a specific scent
was not reason to exclude cadaver dog evidence in every case.
Id. at 457-48. Instead, the Michigan Court of Appeals found that
the evidence could be admitted after a sufficient foundation was
established that: “(1) the handler was qualified to use the dog,
(2) the dog was trained and accurate in identifying human
remains, (3) circumstantial evidence corroborates the dog’s
identification, and (4) the evidence was not so stale or
contaminated as to make it beyond the dog’s competency to
identify it.” Id. at 457.
19

44a
Virginia criminal proceeding, a qualified expert
witness is allowed to testify if “the subject matter is
beyond the knowledge and experience of ordinary
persons, such that the jury needs expert opinion in
order to comprehend the subject matter, form an
intelligent opinion, and draw its conclusions.” Va. R.
Evid. 2:702(a)(ii). “[T]he trial judge must determine
whether the subject matter of the testimony is beyond
a lay person’s common knowledge and whether it will
assist the trier of fact in understanding the evidence
or in determining a fact in issue.”
Utz v.
Commonwealth, 28 Va. App. 411, 423 (1998). A
challenge to an “expert’s measurements, methods and
determinations . . . does not render inadmissible
expert opinion based on those measurements,
methods and computations” but goes to the “weight of
the evidence,” raising “factual questions to be
determined by the jury.” Hubbard v. Commonwealth,
12 Va. App. 250, 255 (1991).
Provided
that
certain
foundational
requirements are met, Virginia courts have allowed
the admission of expert testimony regarding dog
tracking and narcotics detection dog evidence. As
noted above, in Epperly, the Supreme Court
examined tracking dog evidence. In permitting the
admission of dog tracking evidence, the Court stated
as follows:
We hold that dog-tracking evidence is
admissible in a criminal case after a
proper foundation has been laid to show
that the handler was qualified to work
with the dog and to interpret its
responses, that the dog was a
sufficiently trained and proven tracker

45a
of human scent, that the dog was placed
on the trail where circumstances
indicated that the guilty party had been,
and that the trail had not become so
stale or contaminated as to be beyond
the dog’s tracking capabilities.
224 Va. at 233.
In Hetmeyer v. Commonwealth, 19 Va. App.
103 (1994), defendant challenged the admission of
testimony relating to a drug dog’s reaction to the odor
of narcotics. The dog had been presented with a
“lineup” of five envelopes and alerted to one which
contained cash that had been taken from defendant.
Id. at 107-08. This Court, utilizing Epperly in its
analysis, found that the trial court did not err in the
admission of this evidence:
Just as the dog’s “alert” on Epperly’s
scent and the related pursuit of it to his
residence
were
admissible
as
substantive
evidence
in
that
prosecution, we hold that expert
testimony with respect to a dog’s
reaction to the odor of narcotics is
admissible when supported by a proper
foundation.
Such foundation must
establish the appropriate training and
reliability of the dog in the detection of
specific drugs by odor and the witness
handler’s expertise in interpreting the
dog’s
behavior,
together
with
circumstances
conducive
to
a
dependable scent identification by the

46a
animal and a credible evaluation of its
related behavior.
Id. at 109-10.
Epperly and Hetmeyer guide our analysis,
establishing that expert testimony regarding cadaver
dog evidence is admissible, as long as a proper
foundation has been laid. In the context of cadaver
dog evidence, we hold that expert testimony relating
to a dog’s reaction to the odor of human decomposition
is admissible after a proper foundation has been laid
to show that the handler was qualified to work with
the dog and to interpret its responses, that the dog
was sufficiently trained in the detection of human
decomposition odor, and that the circumstances
surrounding the identification were conducive to a
dependable scent identification by the animal.
In the instant case, we conclude that these
foundational requirements for the admission of the
cadaver dog evidence were met.
First, we find that the record contains evidence
that Grime was qualified to work with Morse and to
interpret his responses. Grime was qualified at trial
as an expert in human remains detection and the
training of victim recovery dogs. He described his
past experience, including his creation of a cadaver
dog training program in the United Kingdom. Grime
had trained Morse from a puppy to certification and
regularly conducted training with him. Stockham
had never witnessed a situation involving Morse
where Grime was able to cue the dog to alert to
something that was not there.

47a
The record also includes evidence that Morse
was sufficiently trained in detecting the odor of
human decomposition. Grime explained that Morse
was first trained using scent pads which had been
applied to corpses, and then trained in “operational”
scenarios, including training with known graves.
Morse’s training records reflect that the dog
participated in several training exercises from
February 2014 through April 2014, the month of the
search of the victim’s residence, and that Morse
received all “excellent” or “[v][ery] good” proficiency
ratings. His yearly assessment reflected that Morse
was “very experienced” and “trusted.” In addition,
Stockham opined that Morse, in the period leading up
to the search at issue, was “[v]ery proficient.”
Finally, the record includes evidence showing
that the circumstances surrounding the identification
were conducive to a dependable scent identification by
Morse. The search of the victim’s residence with
Morse was conducted fourteen days after the
discovery of the victim’s body, and Stockham testified
that the odor of human decomposition is “very
persistent” over time. Prior to the search, Stockham
was told that the victim had been found hanging in a
bathroom, but that investigators thought that her
body had been previously “stashed” elsewhere in the
house.
Stockham did not know where the
investigators thought the body had been, and he only
told Grime that they were assisting with a homicide
case before instructing him to “run his dog.”
The trial court heard evidence as to the
qualifications and training of the cadaver dog
handler, the training of the dog itself, and the
circumstances surrounding the search and the dog’s

48a
scent identification. This evidence established a
proper foundation for the admission of the cadaver
dog evidence. Therefore, we hold that the court did
not err in admitting the expert testimony regarding
20
the cadaver dog evidence.

Appellant further argues that the admission of the
cadaver dog evidence violated Rule 2:703(b) and Rule 2:403. We
find no merit in either argument.
20

Rule 2:703(b) provides that “the opinion of an expert is
generally admissible if it is based upon facts personally known
or observed by the expert, or based upon facts in evidence.”
Appellant argues the admission of the cadaver dog evidence
violated this evidentiary rule because Stockham and Grime “did
not establish that the dogs were sufficiently reliable for
identifying scent from a specific person, or determining that a
specific person was ever in an exact location” and “could not
identify what the dogs were alerting to.” Here, Grime personally
conducted the search of the victim’s house with Morse and
observed him alert in the basement bathroom and master
bedroom. He opined that “to a reasonable degree of scientific
certainty,” Morse alerted to human decomposition. His opinion
was derived from his personal observation of Morse the day of
the search and from his prior training with Morse. Thus, the
evidence did not violate Rule 2:703(b). Rule 2:403(a) provides
that relevant evidence may be excluded if “the probative value of
the evidence is substantially outweighed by . . . its likelihood of
confusing or misleading the trier of fact.” Appellant argues that
the cadaver dog evidence improperly permitted the jury to
speculate that there was an odor of human decomposition in the
bedroom and that its source was the victim, and because there
was no foundation for these conclusions, the jury was likely
confused or misled. However, as noted above, the
Commonwealth had provided a proper foundation for the expert
testimony given by Stockham and Grime. They both opined that
Morse alerted to the odor of human decomposition, and the jury
was free to draw the reasonable inference that this odor derived
from the victim.

49a
E. Prosecutorial Misconduct
During closing argument, the Commonwealth’s
attorney told the jury, “Please remember as you listen
to them. You have to hold us to a standard, and that’s
right. But hold them to a standard, too.” Counsel for
appellant objected and moved for a mistrial, stating,
“Judge, this is three times. It’s strike three; they’re
out. We ask . . . [for] a mistrial. The Commonwealth
has gone on this rant about high-priced attorneys and
hired-gun attorneys, and whatever she said the first
two times I objected. And now she tells this jury that
we have a burden.” Counsel had previously objected
to the Commonwealth’s attorney’s statements in
closing that (1) the “greatest part” of the judicial
system was the jury’s ability to decide the case
according to the law, “no matter how many lawyers
you have, no matter how many lawyers you pay to sit
and --” and (2) “[n]o matter what you do to try to divert
the jury’s attention away from the truth, no matter
what lies you tell when you testify, no matter who
comes in here, whether they’re high-priced handpicked --.” After appellant’s objection to the first
statement, the court directed the Commonwealth to
Appellant further contends that the admission of the
cadaver dog evidence invited jury confusion and speculation
because it was just as likely, if not more likely, that the dog
falsely alerted, alerted due to the presence of menstrual blood,
alerted to an odor transferred from the basement, or alerted to a
source existing prior to March 19 or to a source created after
March 20. However, appellant was given the opportunity to
cross-examine, and did cross-examine, both experts on the
variables that could produce a cadaver dog’s alert. The
arguments relating to the likelihood that the dog falsely alerted
or alerted to a presence other than the victim’s body went only
to the weight of the evidence, not its admissibility.

50a
“concentrate on the evidence.”
The court then
overruled
appellant’s
objection
to
the
Commonwealth’s second statement.
In response to appellant’s motion for mistrial,
the Commonwealth’s attorney said that she was not
suggesting that appellant had a burden to carry.
Instead, she meant that when he put on evidence, “it’s
fair for the Commonwealth to suggest that this jury
be suspect of this evidence, consider the source of the
evidence, consider the price that was paid for the
experts. That’s all I’m doing.” The court denied the
motion for mistrial, telling counsel for appellant that
[w]hen you first objected earlier, the
[c]ourt
redirected
.
.
.
[the
Commonwealth’s attorney] to discuss
the evidence. She has been discussing
the evidence. Then the next time you
objected, her whole statement hadn’t
come out. And you said that she was
talking about attorneys and she was
referring to experts, which is fair
argument. I am denying the motion for
a mistrial.
The court then instructed the jury that the
Commonwealth must prove each element of the
charges beyond a reasonable doubt and that there
was no burden on appellant to produce any evidence.
Later
in
closing
argument,
the
Commonwealth’s attorney mentioned the alibi notice
filed by appellant, noting that, “It . . . gives notice that
he ‘may’ introduce evidence of an alibi. ‘May?’ Or may
not?” Counsel for appellant objected and moved for a
mistrial, arguing that the Commonwealth was

51a
improperly commenting on the alibi notice when “[i]t’s
not a requirement that he presents an alibi defense”
and that the comment “put a burden onto [appellant],
to invoke his right to counsel and his right to interact
with his counsel.” The court sustained the objection
but denied the motion for mistrial, stating that there
could be other “legitimate reasons, other than the
ones that the Commonwealth would be suggesting,
why an alibi defense would not be put on.” The court
then directed the jury to disregard the
Commonwealth’s attorney’s comment.
Discussion
Appellant argues that the trial court erred in
denying his motions for mistrial because the
Commonwealth’s assertions during closing argument
invited mistrial, caused questioning of the verdict’s
validity, invited speculation, and improperly raised
21
the ire and emotion of the jury.
In addition, appellant challenges the trial court’s
denial of his motion notwithstanding the verdict in which he
argued that several additional statements made by the
Commonwealth’s attorney during closing argument constituted
prosecutorial misconduct. However, while appellant objected to
many of these allegedly improper statements, he did not ask for
a cautionary instruction on any and moved for a mistrial only
twice during closing argument. Thus, the only statements before
this Court are the statements challenged by appellant in his
motions for mistrial. See Cheng v. Commonwealth, 240 Va. 26,
38 (1990) (“It is well-settled that errors assigned because of a
prosecutor’s alleged improper comments or conduct during
argument will not be considered on appeal unless an accused
timely moves for a cautionary instruction or for a mistrial.”).
21

Further, we reject appellant’s contention, made in his
reply brief, that he preserved his argument regarding the other
statements by challenging them in his motion for judgment

52a
“The decision whether to grant a mistrial
motion is a matter submitted to the circuit court’s
sound discretion.” Lewis v. Commonwealth, 269 Va.
209, 213 (2005).
The trial court must make an initial
factual determination, in the light of all
the circumstances of the case, whether
the defendant’s rights had been so
indelibly prejudiced as to require a new
trial. Unless we can say as a matter of
law that this determination was wrong,
it will not be disturbed on appeal.
Unless the record shows the contrary, it
is to be presumed that the jury followed
an explicit cautionary instruction
promptly given.
LeVasseur v. Commonwealth, 225 Va. 564, 589
(1983).
Appellant’s first mistrial motion was in
response to the Commonwealth’s attorney’s
statement, “Please remember as you listen to them.
You have to hold us to a standard, and that’s right.
But hold them to a standard, too.” When objecting to
notwithstanding the verdict. Virginia case law is clear that a
party preserves a mistrial argument for appeal as long as the
objection’s timing and the request for a mistrial do not
significantly impair the trial court’s ability to take corrective
action. See Angel v. Commonwealth, 281 Va. 248, 271-72 (2011).
Here, appellant’s further arguments in support of a mistrial
were made in a post-trial motion after the jury was dismissed.
Because appellant failed to raise these issues until after his
motion to set aside the verdict, the trial court’s ability to take
corrective action was significantly impaired.

53a
this statement, counsel for appellant also referenced
his objections to the Commonwealth’s remarks about
the number of attorneys representing appellant and
his “high-priced” experts. We find that none of the
three challenged statements warranted a mistrial.
Regarding the burden statement, the
Commonwealth asked the jury to hold the defense “to
a standard, too.” After denying the motion for
mistrial, the court instructed the jury that the
Commonwealth must prove each element of the
charges beyond a reasonable doubt and that there is
no burden on appellant to produce any evidence.
Even if the Commonwealth’s attorney’s statement
could be construed as an improper comment
indicating there was a burden on appellant to produce
evidence, the jury was given a prompt cautionary
instruction, and there is no indication that this
comment was so impressive that it caused prejudice
warranting a new trial.
As for the comments on appellant’s “highpriced hand-picked” experts, appellant argues that
this statement was meant to indicate that his experts
only provided the answers they were paid to provide
and thus only served to inflame the jury’s passions
against appellant. However, the trial court found
that the statement regarding the experts was “fair
argument,” and we agree. The Commonwealth’s
attorney may properly “refer to the evidence and fair
inferences from it” during closing argument to a jury.
Martinez v. Commonwealth, 10 Va. App. 664, 672
(1990) (quoting Timmons v. Commonwealth, 204 Va.
205, 217 (1963)), aff’d as modified, 241 Va. 557 (1991).
“Whether the words used were prejudicial must be
judged by a review of the totality of the evidence.”

54a
Fain v. Commonwealth, 7 Va. App. 626, 629 (1989).
On cross-examination, the Commonwealth’s attorney
had elicited testimony from appellant’s experts on
how much they had been paid for their involvement
in the case. This line of questioning was proper
because the Commonwealth was entitled to attempt
to persuade the jury that bias existed on the part of
the experts. “The bias of a witness, like prejudice and
relationship, is not a collateral matter. The bias of a
witness is always a relevant subject of inquiry when
confined to ascertaining previous relationship, feeling
and conduct of the witness.” Henson v.
Commonwealth, 165 Va. 821, 825-26 (1936); see also
Henning v. Thomas, 235 Va. 181, 187 (1988) (finding
error in a medical negligence case when the trial court
refused defendants’ counsel’s request to crossexamine plaintiff’s expert witness about how he
became involved in the case and allowed only the
question of whether the witness was being paid to
give his testimony). Therefore, the fact that the
experts that testified in appellant’s defense were paid
was a fact in evidence and constituted a proper
subject for closing argument.
Appellant also challenges the Commonwealth’s
attorney’s comment that the “greatest part” of the
judicial system was the jury’s ability to decide the
case according to the law, “no matter how many
lawyers you have, no matter how many lawyers you
pay to sit . . . ,” arguing that this statement was meant
to denigrate his counsel and inflame the jury’s
passions against him.
Here, we find that the
Commonwealth’s singular reference to the fact that
appellant had a number of attorneys representing
him, while not a proper subject for closing argument
as it did not refer to the evidence or fair inferences to

55a
be drawn from the evidence, was not so prejudicial as
to likely inflame the passions of the jury. In addition,
the trial court noted that the Commonwealth’s
attorney refrained from discussing appellant’s
counsel after being so directed by the court. Under
such circumstances, we cannot say that the
Commonwealth’s isolated reference to appellant’s
team of attorneys during closing argument “so
indelibly prejudiced” him that it necessitated a
mistrial. LeVasseur, 225 Va. at 589. Thus, we find
that the trial court did not err in denying appellant’s
first motion for mistrial based upon the
Commonwealth’s statements regarding a burden,
appellant’s experts, and appellant’s attorneys.
We also find that the court did not err in
denying appellant’s second mistrial motion which
challenged the Commonwealth’s attorney’s statement
regarding his alibi notice. Appellant challenged the
Commonwealth’s statement to the jury that
appellant’s alibi notice “gives notice that he ‘may’
introduce evidence of an alibi. ‘May?’ Or may not?”
The court sustained appellant’s objection to the
statement but denied his motion for mistrial, and
then directed the jury to disregard the challenged
statement. Although the Commonwealth’s statement
was an attempt to indicate that appellant was unsure
if he was going to introduce an alibi defense because
he did not have one, the court promptly instructed the
jury to disregard the Commonwealth’s statement. We
find that any implication from the Commonwealth’s
statement regarding the alibi notice was not so

56a
prejudicial that it could not be cured by the cautionary
22
instruction.
Because we find that the challenged
statements in both mistrial motions did not create
indelible prejudice against appellant as to require a
new trial, we conclude that the trial court did not
abuse its discretion in denying both motions for
mistrial.
F. Testimony via Two-Way Closed-Circuit
Television
Prior to trial, the Commonwealth filed a motion
for the use of two-way closed-circuit television for the
testimony of Z.C., pursuant to Code § 18.2-67.9. At a
hearing on the motion, Mary Spooner, a licensed
clinical social worker, was qualified as an expert in
the field of trauma specialization. She testified that
she had been treating Z.C. since April 2014, the
month after the victim’s death. Her therapy with Z.C.
was focused on helping him resolve the grief and loss
surrounding the traumatic nature of his mother’s
death. It was reported to Spooner that Z.C. had
displayed aggressive behaviors and experienced bed
wetting episodes before and after visitation with
appellant. She testified that Z.C. found it difficult to
communicate about the events surrounding the
victim’s death and opined that this difficulty was
because Z.C. was sensitive and it was hard for him to
tolerate uncomfortable feelings. She further opined
We acknowledge that in this case, appellant’s notice of
alibi was admitted into evidence. Despite being in evidence, the
Commonwealth’s statement regarding the alibi notice was not a
proper subject for closing argument because it suggested that
appellant had a burden to produce evidence on his behalf.
22

57a
that Z.C. would suffer “severe emotional trauma”
from testifying in open court. Spooner based this
opinion on her
experience with him about
tolerating his difficult emotions. He is a
very sensitive little boy. He will be
sensitive to the emotions of everyone.
Court is a difficult place to be testifying
for adults let alone a little boy who is
incredibly sensitive and he doesn’t
tolerate emotional discomfort well and
he’s been through a lot already. He still
misses his mother a lot.
She also stated that in her opinion, the likelihood that
Z.C. would experience severe emotional trauma would
be lessened if he were allowed to testify via closedcircuit television.
On cross-examination, Spooner was asked if
the court limiting the courtroom to only the attorneys,
jurors, and appellant would “help” Z.C. in testifying.
She replied that “it would be hard for [Z.C.] to testify
in front of a parent because he’s very sensitive.”
Counsel for appellant then asked Spooner, “if [Z.C.]
was told that he had to come in and testify and that
his dad was going to be on the other side of the
courtroom and he was going to be asked questions and
to listen carefully and to answer the questions, he
could do that, couldn’t he?” Spooner replied, “I don’t
know that he could.”
On rebuttal, the
Commonwealth’s attorney asked Spooner what was
the basis of her opinion that “there is a substantial
likelihood that testifying in open court especially in
front of [appellant], his father, would cause [Z.C.]

58a
severe emotional trauma?” Spooner replied that she
had met with Z.C. on a regular basis for two years and
“gotten to know him[,] which is my job to understand
children and their treatment process[,] and based on
my experience with [Z.C.] it is my opinion that having
to testify in open court would be significantly and
severely traumatizing to him emotionally.”
After hearing argument, the court granted the
Commonwealth’s motion.
Discussion
Appellant contends that the trial court erred in
allowing Z.C. to testify via two-way closed-circuit
television. He argues that Code § 18.2–67.9 is
unconstitutional and that the trial court erred in
applying the requirements of Maryland v. Craig, 497
U.S. 836 (1990).
1. The Constitutionality of Code § 18.2-67.9
“In assessing the constitutionality of a statute,
we must presume that the legislative action is valid.
The burden is on the challenger to prove the alleged
constitutional defect.” Woolfolk v. Commonwealth, 18
Va. App. 840, 848 (1994) (quoting Perkins v.
Commonwealth, 12 Va. App. 7, 14 (1991)). “Every act
of the legislature is presumed to be constitutional,
and the Constitution is to be given a liberal
construction so as to sustain the enactment in
question, if practicable.” Moses v. Commonwealth, 27
Va. App. 293, 298 (1998) (quoting Bosang v. Iron Belt
Bldg. & Loan Ass’n, 96 Va. 119, 123 (1898)). “When
the trial court rules on the constitutionality of a
statute, we review such decisions de novo.” Johnson
v. Commonwealth, 56 Va. App. 244, 248 (2010).

59a
Appellant first argues that Code § 18.2-67.9 is
unconstitutional because the United States Supreme
Court decision allowing the use of closed-circuit
television, Maryland v. Craig, 497 U.S. 836 (1990),
was overruled by Crawford v. Washington, 541 U.S.
36 (2004). Our Court rejected this same argument in
Roadcap v. Commonwealth, 50 Va. App. 732 (2007).
In Roadcap, we stated as follows:
[Appellant] nonetheless suggests we
“make new law” (his expression) by
reexamining the underlying logic of
Craig in light of newer, but
distinguishable, decisions like Crawford
. . . which he claims recognizes a more
robust application of confrontation
clause rights. We decline the invitation.
As nearly all courts and commentators
have agreed, Crawford did not overrule
Craig. Whether it could have or should
have, we do not say, and it is not our
place to predict whether any of
Crawford’s progeny will do so. “When a
precedent of the Supreme Court has
direct application in a case, we are not at
liberty to ignore that precedent in favor
of other Supreme Court decisions
employing a similar analysis in a
different factual and legal context.”
Johnson v. Commonwealth, 267 Va. 53,
76 (2004) (citation omitted). Lower
courts must “follow the case which
directly controls,” leaving to the
Supreme Court the sole “prerogative of
overruling its own decisions.” Id.
(citation omitted); see also United States

60a
v. Hatter, 532 U.S. 557, 567 (2001); State
Oil Co. v. Khan, 522 U.S. 3, 20 (1997)
(stating “it is this Court’s prerogative
alone to overrule one of its precedents”).
The holding as well as the ratio
decidendi of Craig, therefore, stands as
binding authority.
Id. at 742-43 (footnote omitted).
This panel is bound by the holding in Roadcap.
See Startin v.Commonwealth, 56 Va. App. 26, 39 n.3
(2010) (en banc) (noting that a holding by one panel of
this Court “bind[s] all other three-judge panels under
the interpanel accord doctrine”). Thus, appellant’s
argument that Code § 18.2-67.9 is unconstitutional
due to the holding of Crawford fails.
Appellant further argues that Code § 18.2-67.9
is unconstitutional because the statute is broader in
scope than the statute examined in Craig and
therefore its application in this case violated his
confrontation right under the Sixth Amendment.
In Craig, the Supreme Court upheld a Maryland
statute permitting child abuse victims to testify from
outside the courtroom through the use of one-way
closed-circuit television. 497 U.S. at 841. The
Supreme Court declared that, while “‘the
Confrontation Clause reflects a preference for face-toface confrontation,’” defendants do not have an
“absolute right to a face-to-face meeting with
witnesses against them at trial.” Id. at 844, 849
(quoting Ohio v. Roberts, 448 U.S. 56, 63 (1980)).
However, the Court cautioned that while not
absolute, “the face-to-face confrontation requirement”
may not “easily be dispensed with.” Id. at 850. The

61a
Court held that “a defendant’s right to confront
accusatory witnesses may be satisfied absent a
physical, face-to-face confrontation at trial only
where” (1) the “denial of such confrontation is
necessary to further an important public policy,” and
(2) “the reliability of the testimony is otherwise
assured.” Id.
We acknowledge that the statute at issue, Code
§ 18.2-67.9, is broader in scope than the Maryland
statute found constitutional in Craig. The Maryland
statute permitted the use of closed-circuit television
for a child victim’s testimony in a child abuse case. Id.
at 840 n.1. In contrast, Code § 18.2-67.9 permits the
use of closed-circuit television for an “alleged victim
or a child witness” in criminal proceedings “involving
an alleged offense against a child, relating to a
violation of the laws pertaining to kidnapping . . . ,
criminal sexual assault . . . , or family offenses
pursuant to Article 4 . . . of Chapter 8 of Title 18.2, or
involving an alleged murder of a person of any age.”
Noting the differences between the statutes,
appellant argues that Craig only allowed for closedcircuit television testimony for victims of child abuse
and that the state had a unique and compelling
interest in protecting children under those specific
circumstances. Thus, Craig’s reasoning may not be
extended to protect other interests.
We are unpersuaded by this argument. While
the Virginia statute is broader than the specific
statute addressed in Craig, we do not find that the
language of Craig itself limits its holding to child
abuse cases. At no point in Craig did the Supreme
Court indicate that it was establishing a definite
limitation as to when the Confrontation Clause

62a
permits testimony by closed-circuit television.
Rather, we view Craig as allowing a necessity-based
exception for face-to-face, in-courtroom confrontation
where the witness’ inability to testify in court invokes
a state’s interest in protecting the witness, and do not
regard its specific language as limiting this reasoning
only to the protection of a state’s interest in protecting
child abuse victims. See Horn v. Quarterman, 508
F.3d 306, 319-20 (5th Cir. 2007) (“Craig’s references
to ‘an important public policy’ and ‘an important state
interest,’ are reasonably read to suggest a general
rule not limited to protecting child victims of sexual
offenses from the trauma of testifying in a defendant’s
presence.” (citation omitted) (quoting Craig, 497 U.S.
at 850, 852)).
Here, the General Assembly has indicated by
its enactment of Code § 18.2-67.9 its public policy
interest in reducing trauma for child witnesses
involved not only in child abuse, but in a range of
serious crimes.
This statute represents the
legislature’s judgment as to the circumstances that
best accommodate both the public’s interest in
protecting child witnesses and a defendant’s right to
confront adverse witnesses. Although this statute is
broader in scope than the statute examined in Craig,
nothing in the language of Craig itself indicates that
Code § 18.2-67.9 is unconstitutional because of its
broader provisions. Therefore, we reject appellant’s
challenge to the constitutionality of Code § 18.2-67.9.
2. The Specific Requirements of Craig
Appellant also argues that the trial court erred
in allowing the use of two-way closed-circuit
television because the requirements for the use of

63a
closed-circuit television mandated by Craig were not
present in this case.
In Craig, the Supreme Court held that a trial
court’s finding that an alternate method of taking
testimony must be case-specific, based upon specific
factual findings that: (1) the alternate method “is
necessary to protect the welfare of the particular child
witness who seeks to testify”; (2) the “child witness
would be traumatized, not by the courtroom
generally, but by the presence of the defendant”; and
(3) “the emotional distress suffered by the child
witness in the presence of the defendant is more than
de minimis, i.e., more than ‘mere nervousness or
excitement or some reluctance to testify.’” 497 U.S. at
855-56 (quoting Wildermuth v. State, 530 A.2d 275,
289 (Md. 1987)).
In the instant case, appellant alleges that the
trial court erred by not making the specific findings
that Z.C. would be “traumatized, not by the courtroom
generally, but by the presence of the defendant” and
that his emotional distress would be more than “mere
nervousness or excitement or reluctance to testify.”
However, it is clear from the record that the
trial court did in fact make these specific findings, as
is mandated under Code § 18.2-67.9. See Code § 18.267.9 (testimony may be taken by closed-circuit
television if the court “finds that the child is
unavailable to testify in open court in the presence of
the defendant, the jury, the judge, and the public for
any of the following reasons,” including that “the child
will suffer severe emotional trauma from so
testifying”). In granting the Commonwealth’s motion
at the pretrial hearing, the court explained that it did

64a
so because Spooner’s testimony demonstrated that
there was a “substantial likelihood” that Z.C. would
“suffer severe emotional trauma from testifying in
open court due to the presence of [appellant].” In
addition, the court found that the potential “severe
emotional trauma is clearly more than de minimis,”
and “more than on the level of nervousness or
excitement.”
Moreover, we find no error in the court’s
determinations. “When reviewing the decisions of a
trial court, we give great weight to the court’s factual
findings, which will not be disturbed on appeal unless
plainly wrong or without evidence to support them.”
Parrish v. Commonwealth, 38 Va. App. 607, 613
(2002). In addition, “we consider all the evidence, and
any reasonable inferences fairly deducible therefrom,
in the light most favorable to the party that prevailed
at trial, which is the Commonwealth in this case.”
Toliver v. Commonwealth, 38 Va. App. 27, 31 (2002)
(quoting Byers v. Commonwealth, 37 Va. App. 174,
179 (2001)).
In this case, evidence adduced at trial
supported the finding that Z.C. would be traumatized,
not by the courtroom generally, but by the courtroom
presence of appellant. A month after the victim’s
death, Spooner began treating Z.C., helping him to
resolve grief he experienced due to the traumatic
nature of his mother’s death. Spooner was informed
that Z.C. had displayed aggressive behaviors and
experienced bed wetting episodes before and after
visitation with appellant. She was asked if limiting
the courtroom to only the attorneys, jurors, and
appellant would “help” Z.C. in testifying, and she
replied that “it would be hard for him to testify in

65a
front of a parent because he’s very sensitive.” Clearly,
the only parent Spooner could have been referencing
regarding Z.C.’s inability to testify was appellant.
Further, when asked whether Z.C., if he “was told
that he had to come in and testify and that [appellant]
was going to be on the other side of the courtroom and
he was going to be asked questions and [had] to listen
carefully and to answer the questions, . . . [he] could
do that,” Spooner replied, “I don’t know that he could.”
Z.C.’s behavior surrounding his visitations with
appellant and Spooner’s testimony about Z.C.’s ability
to testify in front of appellant provided sufficient
support for the trial court’s finding that the child
would be traumatized, not by the courtroom
generally, but by the presence of appellant.
Spooner’s testimony also established that the
trial court did not err in its finding that Z.C’s
emotional distress would rise to more than mere
nervousness or excitement or some reluctance to
testify. She opined that there was a substantial
likelihood that Z.C. would suffer severe emotional
trauma from testifying in open court. Spooner based
her opinion on Z.C.’s “incredibly sensitive” nature and
his inability to tolerate his “difficult emotions.” She
also pointed to the emotional discomfort he had
already experienced due to the victim’s death and the
difficulty he had in discussing the events surrounding
her death. This testimony provided a sufficient basis
for the trial court to determine that Z.C.’s emotional
distress was more than mere nervousness or
reluctance to testify, and thus we cannot say that this
finding was plainly wrong or without evidence.
Here, the trial court found Z.C. would be
traumatized, not by the courtroom generally, but by

66a
the presence of the defendant and that his emotional
distress would be more than mere nervousness or
excitement or reluctance to testify. The record
supports these findings; therefore, we reject
appellant’s argument that the trial court erred in its
application of Craig in the instant case.
G. Testimony Regarding Appellant’s Silence
Prior to trial, appellant filed a motion to bar the
Commonwealth from eliciting testimony from
Detective McCaffrey that appellant had no response
when McCaffrey informed him of the victim’s death.
Appellant argued that any evidence of his lack of
response to McCaffrey’s questioning violated his Fifth
Amendment right under the United States
Constitution and Article I, § 8 of the Virginia
Constitution. Appellant also alleged that the
evidence was inadmissible because it was ambiguous
and would result in improper speculation by the jury.
The court denied the motion to bar the
Commonwealth’s introduction of testimony that
appellant displayed no emotion when he was told his
wife had died.
At trial, Detective McCaffrey testified that he
arrived at the victim’s residence at about 9:55 a.m. the
morning of the victim’s death. He stated that one of
his duties as lead detective was to provide death
notices to the victim’s family. Someone provided
McCaffrey with appellant’s phone number, and he
called appellant and informed him that he wanted to
speak with him about the victim’s “disappearance.”
Appellant stated that he had his youngest son with
him and that he would arrange for someone to care for
the child before speaking with the detective.

67a
McCaffrey told appellant that he wanted to speak
with him immediately because it was important, and
appellant replied that he would “get back to”
McCaffrey and hung up. At that point, McCaffrey
went to appellant’s home and gave him a “death
notification” regarding the victim.
McCaffrey
testified that appellant displayed no emotion in
response to this information. McCaffrey also testified
that appellant did not ask questions as to how the
victim had died.
Discussion
Appellant argues that the trial court erred by
permitting testimony regarding appellant’s silence
and lack of emotion when McCaffrey informed him of
the victim’s death. Appellant contends that this
testimony had no probative value and only invited
jury speculation and that admitting evidence of
appellant’s lack of response violated his Fifth
Amendment right to remain silent.
In the instant case, we need not decide whether
the trial court erred in admitting the testimony
regarding appellant’s response to being informed of
the victim’s death because we conclude that any
23
potential error was harmless.
We do not address the issues of whether evidence of
appellant’s pre-custodial silence was too speculative to be
admitted or violated his Fifth Amendment rights because “[a]s
an appellate court, we seek ‘the best and narrowest ground
available’ for our decision.” Harvey, 65 Va. App. at 285 n.2
(quoting Armstead, 56 Va. App. at 576). With respect to this
assignment of error, we conclude that our determination that the
error, if any, was harmless constitutes the best and narrowest
ground.
23

68a
Appellant challenges the admission of
McCaffrey’s testimony on the evidentiary basis that it
had no probative value and on the constitutional basis
that it violated his Fifth Amendment right to silence.
Because appellant’s challenge to the admission of the
testimony involves both constitutional and nonconstitutional harmless error, we analyze its
admission under the more stringent constitutional
standard, finding that any error in the testimony’s
admission was harmless even under this standard.
“When a federal constitutional error is
involved, a reversal is required unless the reviewing
court determines that the error is harmless beyond a
reasonable doubt.” Pitt, 260 Va. at 695. In order to
determine whether the error was harmless beyond a
reasonable doubt, we must ask “whether there is a
reasonable possibility that the evidence complained of
might have contributed to the conviction.”
Id.
(quoting Chapman, 386 U.S. at 23). Further, in
making the determination of whether constitutional
error existed, the court must consider, among other
factors, “the importance of the tainted evidence in the
prosecution’s case, whether that evidence was
cumulative, the presence or absence of evidence
corroborating or contradicting the tainted evidence on
material points, and the overall strength of the
prosecution’s case.” Lilly, 258 Va. at 551.
Examining these factors in the present case, we
first emphasize the relative lack of importance of
McCaffrey’s testimony to the Commonwealth’s case.
Here, McCaffrey testified that, after providing
appellant with the information that the victim had
died, appellant displayed no emotion in response and
did not any ask questions as to how the victim had

69a
died. Any inference the jury could have drawn from
these facts would have been inherently ambiguous.
Based on McCaffrey’s testimony, the jury reasonably
could have inferred that appellant’s reaction
indicated he was not surprised to hear that the victim
was dead, and further inferred that this was because
he had in fact murdered her. However, the jury just
as reasonably could have inferred that appellant’s
reaction was motivated by other factors. Some
individuals might display no emotion when they
24
experience extreme shock or surprise. McCaffrey did
not testify as to how other individuals to whom he
gave death notifications in the past had reacted, and
therefore the jury did not have a rational basis for
concluding whether appellant’s reaction was typical
or atypical. Thus, because any inference the jury
might have drawn from McCaffrey’s testimony would
have been inherently ambiguous, the evidence had
25
little probative value.
Further, as discussed supra in Part II.C, the
record contains substantial evidence supporting
appellant’s conviction. Two of appellant’s friends and
his adult son identified appellant from security
footage as the person who approached the victim’s
home on the night of her death. Z.C., another of
appellant’s sons, testified that he had seen appellant
This assertion is supported by appellant’s own
testimony. In testifying on his behalf, appellant stated that
when he received the information that the victim had died, he
was “shocked,” “floored,” and “paralyzed.”
24

This assertion is supported by appellant’s own
testimony. In testifying on his behalf, appellant stated that
when he received the information that the victim had died, he
was “shocked,” “floored,” and “paralyzed.”
25

70a
in the victim’s home the night of the killing.
Additionally, appellant’s DNA was identified from
bloodstains found in the victim’s bedroom and on the
victim’s sweatshirt after appellant had been barred
from the residence pursuant to a protective order for
over a year. Further, the medical examiner opined
that the victim was strangled and suffocated and that
her death was inconsistent with suicide.
In light of the testimony’s lack of importance
and the overall strength of the Commonwealth’s case,
we conclude that any error potentially resulting from
the admission of the testimony regarding appellant’s
reaction after being notified of the victim’s death was
26
harmless beyond a reasonable doubt.
H. Cross-Examination of Z.C. and Limitation of
Questioning of McCaffrey
Z.C. testified at trial. On direct examination,
he testified that he left his blanket in the victim’s bed
the night she was killed. He testified that appellant
brought him his blanket that night while he was in
his brother J.C.’s room. He testified that he knew it
was appellant because he could see his face.
On cross-examination, counsel for appellant
asked Z.C. if he sometimes threw things at people,

While we acknowledge that the evidence of appellant’s
reaction was not cumulative or corroborated by other evidence,
we find that these factors are not dispositive to the question of
whether its admission constituted constitutional error in the
present case because of the overwhelming evidence of appellant’s
guilt and the lack of probative value of the testimony itself.
26

71a
and he replied no. Counsel then asked Z.C. if the
Commonwealth’s attorney had “talked to you a lot
about whether or not you threw something at
[appellant] two years ago?,” and Z.C. replied yes. Z.C.
stated that he did not know how many times he had
talked about the matter with the Commonwealth’s
attorney, but that it was more than once. Counsel
then asked whether the Commonwealth’s attorney
had “practiced talking to you about whether or not
you threw a flashlight or threw something towards
your dad,” and Z.C. said no. Counsel asked Z.C. when
he had last “practiced going over this” with the
Commonwealth’s attorney, and Z.C. stated it had
been “a couple [of] weeks ago.” He stated that he did
not know if he had previously talked to the
Commonwealth’s attorney about his testimony.
Counsel asked Z.C. if the Commonwealth’s attorney
had talked about Z.C.’s blanket when they “practiced
being here,” and at that point the Commonwealth
objected, arguing that the question would confuse Z.C
and mislead the jury because it suggested that Z.C.
had rehearsed his testimony with her. The court
sustained the objection as to the use of the word
“practice,” but allowed counsel to ask the question.
Counsel asked Z.C. further questions about his
previous conversations with the Commonwealth’s
attorney.
27

Prior to trial, the Commonwealth filed a motion
to exclude testimony regarding Detective McCaffrey’s
employment history with the Loudoun County
This line of questioning was related to appellant’s
assertion that Z.C. threw a flashlight at him the afternoon prior
to the victim’s death and that was why he had a black eye the
morning after her death.
27

72a
Sheriff’s Office. The Commonwealth moved the court
to order appellant to refrain from referencing at trial
the fact that McCaffrey was not re-sworn by the
sheriff following the sheriff’s re-election and that his
last day of employment with the office was December
31, 2015, prior to the trial’s commencement. During
a hearing on the motion, the Commonwealth’s
attorney stated that she had reviewed the files and
spoken with the sheriff and was told that there were
no past performance issues with McCaffrey. The
Commonwealth’s attorney also noted that she had
requested McCaffrey’s personnel evaluations and any
internal investigation files and that all of these
records reflected that McCaffrey had received high
performance assessments. She represented that the
sheriff had no issues with respect to McCaffrey’s
truthfulness,
veracity,
or
integrity.
The
Commonwealth’s attorney informed the court that
McCaffrey was not re-sworn by the sheriff due to
McCaffrey’s support for another candidate during the
primary campaign for sheriff.
The court granted the Commonwealth’s
motion, finding that the fact that McCaffrey was not
re-sworn was not relevant or probative to an issue at
trial.
Discussion
Appellant argues that the trial court erred by
denying him effective cross-examination when it did
not allow him to question Z.C. about practicing his

73a
testimony and did not allow questioning about
Detective McCaffrey’s employment history.28
“[L]imitation of cross-examination is within the
trial court’s discretion.” Jackson v. Commonwealth,
266 Va. 423, 438 (2003). When a trial court limits a
defendant’s cross-examination, the accused must
proffer the excluded testimony for the record on
appeal. Stewart v. Commonwealth, 10 Va. App. 563,
568 (1990). “The purpose for the proffer ‘is to assure
that the record will be complete.’”
Evans v.
Commonwealth, 39 Va. App. 229, 236 (2002) (quoting
Lowery v. Commonwealth, 9 Va. App. 304, 308
(1990)).
Appellant argues that the trial court
improperly limited his cross-examination when he
was prevented from questioning Z.C. about practicing
or rehearsing his testimony with the Commonwealth.
However, contrary to appellant’s argument, the
record makes clear that he was able to properly crossexamine Z.C. about his prior interactions with the
Commonwealth’s attorney. Here, the trial court did
not limit cross-examination on whether Z.C. had
prepared for trial with the Commonwealth’s attorney,
Appellant also argues that the trial court erred in
limiting cross-examination of J.C. As with Z.C., appellant
contends that he was not allowed to examine the issue of J.C.
practicing his testimony with the Commonwealth’s attorney.
J.C. also testified at trial. On cross-examination, counsel for
appellant asked J.C. if he had discussed the timeline of the
afternoon prior to his mother’s death with the Commonwealth’s
attorney. However, counsel did not ask J.C. any questions about
“practicing”
or
preparing
his
testimony
with
the
Commonwealth’s attorney. Because counsel did not pursue this
line of questioning with J.C., this issue is not before us on appeal.
28

74a
but rather only prohibited the use of the word
“practice” during questioning. Appellant was allowed
to ask and did ask Z.C. several questions about what
he discussed with the Commonwealth’s attorney in
preparation for trial. We find no error in the court’s
limited restriction on appellant’s cross-examination.
Further, even if counsel was prevented from eliciting
information by not being able to use the word
“practice” during cross-examination, counsel did not
proffer what this testimony would have been.
Therefore, on appeal, we cannot examine any alleged
error because appellant did not proffer what Z.C.’s
expected testimony would have been in response to
questions involving the word “practice.”
Appellant also argues that the court erred in
denying him the opportunity to question McCaffrey
regarding his work history and performance records.
Appellant sought to cross-examine McCaffrey on his
employment performance history based on the fact
that he had not been re-sworn by the sheriff.
“Evidence is admissible if it is both relevant
and material.” Patterson v. Commonwealth, 62 Va.
App. 488, 493 (2013) (quoting Evans-Smith v.
Commonwealth, 5 Va. App. 188, 196 (1987)).
“‘Evidence is relevant if it has any logical tendency,
however slight, to establish a fact at issue in the case’
[and] . . . ‘material if it relates to a matter properly at
issue’ in the case.” Cousins v. Commonwealth, 56 Va.
App. 257, 271 (2010) (first quoting Ragland v.
Commonwealth, 16 Va. App. 913, 918 (1993); then
quoting Evans-Smith, 5 Va. App. at 196).
At the time the court granted the
Commonwealth’s motion prohibiting any questioning

75a
regarding McCaffrey’s work history, there was no
evidence before it that his employment history, or the
fact that he was not re-sworn, was relevant to a
material issue at trial. Thus, the court did not abuse
its discretion by denying appellant the opportunity to
cross-examine McCaffrey about his employment
29
history.
I. Brady Claim
Appellant raises a Brady claim regarding
Detective McCaffrey’s actions in an unrelated case.
The facts relating to this claim are as follows. In June
2015, Alejandra Rueda, one of the two
Commonwealth’s attorneys prosecuting appellant,
was assigned to prosecute a DUI offense against
30
James Napier. On June 21, 2015, three days prior to
Napier’s DUI arrest, Napier’s friend, A.H., had died
at his home. Detective McCaffrey was assigned to
After trial, appellant learned that there was an issue
regarding McCaffrey’s truthfulness in relation to an
investigatory report.
We address appellant’s argument
regarding this issue in his next assignment of error. However,
appellant argues under this assignment of error that the trial
court erred in not allowing questioning on McCaffrey’s
employment history because “[h]ad [appellant] been able to show
that McCaffery had a history of making false reports that
contributed to his not being re[-]sworn as a deputy, the jury
would have been able to consider this in the evaluation of his
credibility.” This argument is without merit because, as we
explain infra, the evidence relating to the investigatory report
was not proper impeachment evidence and was therefore
inadmissible.
29

At this time, Rueda was also prosecuting appellant
for the offenses currently on appeal. Appellant was indicted for
these offenses in May 2014, and his trial for these charges took
place during May and June 2016.
30

76a
investigate A.H.’s death. He consulted with Rueda
regarding this investigation approximately one week
after A.H.’s death to determine if any charges should
be filed against Napier. Rueda instructed McCaffrey
that there were no charges to file at that time because
the cause of A.H.’s death was still unknown. She
instructed McCaffrey to wait until the results of
A.H.’s autopsy were known and to then inform her of
the results. In October 2015, McCaffrey received the
results of the autopsy report showing that A.H. had
31
McCaffrey wrote in an
died of GHB poisoning.
investigatory report dated October 23, 2015 that he
had consulted with Rueda and that “she advised that
there was no applicable criminal charge to be filed”
against Napier.
In late October 2015, Napier’s attorney for his
DUI charge informed Rueda that Napier would be
pleading guilty to the offense. Rueda prepared a
guilty plea memorandum that stated that the
Commonwealth agreed to not prosecute Napier for
further offenses regarding the events described in the
police report related to the DUI offense.
In January 2016, McCaffrey left the Loudoun
County Sheriff’s Office and A.H.’s death investigation
was reassigned to Detective Wayne Promisel.
Promisel met with Rueda on January 12, 2016 and
showed Rueda a copy of the autopsy report. After
additional investigation by Promisel, Rueda
Gamma Hydroxybutyrate, commonly known as
“GHB,” is a central nervous system depressant. The drug “has
not approved use in the U.S., where it is sometimes abused as an
illicit drug or used in date rape.” Taber’s Cyclopedic Medical
Dictionary 988 (23d ed. 2017).
31

77a
suggested that he obtain a warrant charging Napier
32
with distribution of GHB.
After Promisel obtained the arrest warrant on
February 11, 2016, he provided Rueda with all of the
investigatory reports in the Napier case. In a written
stipulation filed with the trial court in Napier’s
33
distribution case,33 Rueda stated that this was the
time at which she first saw that McCaffrey had
written that he had consulted with her and that she
34
had declined prosecution. Rueda also represented
that she had never met with McCaffrey about the
death investigation after the initial meeting that
occurred one week after A.H.’s death and that
McCaffrey did not provide her with a copy of the
autopsy report nor discuss the cause of A.H.’s death
with her. She stipulated that her testimony regarding
the matter would be that McCaffrey’s report was
“incorrect in its statement that he met with [her] and
she declined prosecution.”

32 The distribution of GHB charge was suggested to
Rueda by Promisel; Rueda was unaware of the relevant code
section until Promisel suggested it during their January 12
meeting.
33 Napier had filed a motion to dismiss his distribution of
GHB charge, arguing that because A.H.’s death was mentioned
in the police report concerning his DUI offense, any prosecution
related to her death should be barred pursuant to the terms of
the DUI plea agreement.
34 Rueda’s admission makes it clear that she was aware
of her disagreement with McCaffrey’s statement in his
investigatory report in February 2016, prior to trial in
appellant’s case.

78a
On November 7, 2016, following his trial for the
offenses on appeal, appellant filed a supplemental
motion to set aside the verdict and to dismiss due to
35
alleging
that
the
government
misconduct,
Commonwealth had violated Brady v. Maryland, 373
U.S. 83 (1963), by withholding the evidence that
Detective McCaffrey had falsified a police report in
A.H.’s death investigation.
Following the filing of this motion, on
December 1, 2016, Nicole Wittmann, the other
Commonwealth’s attorney prosecuting appellant,
wrote a letter to appellant’s counsel that was filed
with the trial court. The letter stated that she had
met with McCaffrey and that he had advised her that
in addition to the initial meeting following A.H.’s
death, he had met Rueda “in passing in the hallway
or as a pop-in in her office” after he had received the
autopsy report. McCaffrey stated that the meeting
had been very brief and that he did not show Rueda
the autopsy report, and merely informed her that the
victim had died of an overdose. Wittmann wrote that
although Rueda did not recall this meeting, she did
“not doubt [McCaffrey’s] recollection or veracity.”
On December 6, 2016, the court held a hearing
on appellant’s motion. Wittmann stated that the
Commonwealth did not take, and had never taken,
the position that McCaffrey or Rueda had “in any way
asserted anything that was a lie or a falsehood to the
[c]ourt.” Wittmann stated that the letter detailed

35 Appellant had filed an initial motion for judgment
notwithstanding the verdict and in the alternative for a new trial
based on several different grounds on September 29, 2016.

79a
McCaffrey’s own recollection of the incident, which
Rueda never asserted was false.
The trial court denied appellant’s motion to set
aside the verdict and dismiss due to government
misconduct. The court, assuming without deciding
that the first two prongs of Brady were met, found
that appellant had not demonstrated prejudice.
Discussion
Appellant argues that the trial court erred by
not granting the motion to set aside the verdict based
upon the Commonwealth’s Brady violation.
“A Brady violation occurs when the
government fails to disclose evidence materially
favorable to the accused.” Youngblood v. West
Virginia, 547 U.S. 867, 869 (2006). “Brady obligations
extend not only to exculpatory evidence, but also to
impeachment evidence[.]” Coley v. Commonwealth,
55 Va. App. 624, 630 (2010).
To establish a Brady violation, a defendant
must establish that:
a) The evidence not disclosed to the
accused must be favorable to the
accused, either because it is exculpatory,
or because it may be used for
impeachment; b) the evidence not
disclosed must have been withheld by
the Commonwealth either willfully or
inadvertently; and c) the accused must
have been prejudiced.

80a
Hicks v. Dir., Dep’t of Corr., 289 Va. 288, 299 (2015)
(quoting Workman v. Commonwealth, 272 Va. 633,
644-45 (2006)). “The first two Brady components
require the evidence to be favorable to the defendant
and to have been suppressed by the prosecution. The
third Brady component is that the defendant must
prove prejudice.” Mercer v. Commonwealth, 66 Va.
App. 139, 146 (2016).
“In making a Brady challenge, [a] defendant
cannot simply allege the presence of favorable
material and win reversal of his conviction. Rather,
[he] must prove the favorable character of evidence he
claims has been improperly suppressed. Speculative
allegations are not adequate.” Coley, 55 Va. App. at
630 (alterations in original) (quoting Currie v.
Commonwealth, 30 Va. App. 58, 67 (1999)). “We
review the trial court’s findings of historical fact only
for ‘clear error,’ but we review de novo the trial court’s
application of defined legal standards to the
particular facts of a case [. . .] .”
Doss v.
Commonwealth, 59 Va. App. 435, 455 (2012)
(alteration
in
original)
(quoting
Blue
v.
Commonwealth, 49 Va. App. 704, 710 (2007)).
In this case, appellant argues that a Brady
violation occurred because the evidence of
McCaffrey’s false police report was favorable to
appellant in that it could be used for impeachment, it
was withheld by the Commonwealth, and this caused
prejudice because appellant could not use it to
impeach the lead detective who was heavily involved
in the case. Contrary to appellant’s argument, we find
that the facts fail to establish that a Brady violation
occurred because appellant did not establish that the
evidence at issue was favorable to him, a finding

81a
requisite for this Court to conclude that the
36
Commonwealth violated its obligations under Brady.
As noted above, for evidence to be considered
favorable to the accused, it must be either exculpatory
or able to be used for impeachment. See Hicks, 289
Va. at 299. Appellant argues that the evidence that
McCaffrey had made a false statement on a police
report would have damaged McCaffrey’s credibility in
his trial and thus could have been used as
impeachment evidence under Rule 2:607(a)(viii).
37
Rule 2:607(a)(viii) allows impeachment to be proved
by “any other evidence which is probative on the issue
of credibility because of a logical tendency to convince
the trier of fact that the witness’s perception,
memory, or narration is defective or impaired, or that
the sincerity or veracity of the witness is
questionable.” Appellant relies on the part of the rule
that allows impeachment evidence showing “that the
sincerity or veracity of the witness is questionable.”
In other words, appellant alleges that McCaffrey’s
false statement on a police report was proper
impeachment evidence because it demonstrated that
36 As we determine that appellant failed to satisfy the
first prong of Brady, we need not discuss Brady’s other two
requirements, that the evidence not disclosed was withheld by
the Commonwealth either willfully or inadvertently and that the
accused suffered prejudice.

While we use the term “false report” in our analysis,
we note that the trial court “assumed but [did] not decide[]” that
“[t]he nature of the evidence . . . was false, misleading, or
otherwise of impeachment value.” Because it is not necessary
for the resolution of this issue, we express no opinion on whether
the facts actually established that McCaffrey had made a false
statement in the investigatory report in light of his and Rueda’s
recollections of the matter.
37

82a
his veracity was questionable due to the false
statement.
However, in this case, appellant is attempting
to attack McCaffrey’s credibility based upon one
specific act of conduct. Thus, we find the admission of
this evidence is properly analyzed under Rule 2:608,
the evidentiary rule regarding impeachment which
38
Rule
discusses specific instances of conduct.
2:607(a)(i) does allow for impeachment through
“introduction of evidence of the witness’s bad general
reputation for the traits of truth and veracity,” but
only “as provided in Rule 2:608(a) and (b).” Rule
2:608(b) explicitly limits the application of Rule
2:607(a)(i) by providing that “specific instances of the
conduct of a witness” may neither be “used to attack
or support credibility” nor “proved by extrinsic
evidence.” In this case, evidence that McCaffrey had
once made a false statement in a police report in an
38 Although it is true, as noted by appellant, that Rule
2:607(a)(viii) allows impeachment to be proved by evidence “that
the sincerity or veracity of the witness is questionable,” we find
nothing in this language that changes or limits the long-standing
principle in Virginia prohibiting impeachment of a witness’
character by showing specific acts of untruthfulness. See
Lambert v. Commonwealth, 9 Va. App. 67, 71 (1989); Clark v.
Commonwealth, 202 Va. 787 (1961); Bradley v. Commonwealth,
196 Va. 1126 (1955). Further, we also find it appropriate to seek
guidance in Rule 2:608 as opposed to Rule 2:607(a)(viii) because
Rule 2:608 is the more specific rule involving impeachment
evidence and specific instances of conduct, where Rule
2:607(a)(viii) concerns the admission of impeachment evidence
generally. See Commonwealth v. Brown, 259 Va. 697, 706 (2000)
(“[W]hen one statute speaks to a subject generally and another
deals with an element of that subject specifically, the statutes
will be harmonized, if possible, and if they conflict, the more
specific statute prevails.”).

83a
unrelated matter was evidence of a specific act which
addressed a collateral issue. The alleged false
statement in the police report was inadmissible to
prove McCaffrey’s general untruthfulness because
even if his statement that he had consulted with
Rueda was untrue, it was only a specific act of
untruthfulness regarding an extrinsic matter. See
Massey v. Commonwealth, 67 Va. App. 108, 127
(2016) (concluding that defendant failed to establish
that the Commonwealth violated its obligations under
Brady because the statements alleged to be Brady
material were collateral and thus could not be used
for impeachment).
Appellant failed to satisfy the first prong of
Brady because he did not establish that the evidence
would have been favorable to him. Therefore, no
Brady violation occurred by virtue of the
Commonwealth’s failure to disclose McCaffrey’s
alleged false statement on the report prior to trial.
Accordingly, we find that the trial court did not err in
denying appellant’s motion to set aside the verdict
and to dismiss due to government misconduct.
J. In Camera Review of Notes
On April 18, 2016, about a month prior to trial,
one of the Commonwealth’s attorneys prosecuting
appellant’s case emailed his counsel to inform him
that the Commonwealth’s attorneys had met with
three of the Castillo children, J.C., Z.C., and V.C., for
the first time that day. The email stated that “[t]here
are some statements we feel we need to turn over”:
first, that “[J.C.] indicated that [Z.C.] came in[]to his
bedroom at 11pm. Then clarified it may have been
between 9-11pm;” and second, that “[J.C.] stated that

84a
on the evening of March 19th, [appellant] said he had
somewhere he needed to go. His Aunt Lucy took them
to Harris Teeter and his father got into a different
vehicle. He did not see him drive away, just get into
another vehicle.” These statements were inconsistent
with statements J.C. had previously made. Counsel
for appellant asked the Commonwealth’s attorney to
forward any notes from this meeting, and she replied
that neither she nor any law enforcement officer had
taken notes and that the meeting had not been
recorded. The Commonwealth’s attorney stated that
she had “turned over that which the rules and law
requires.”
After this exchange, but prior to trial, the
Commonwealth’s attorney informed counsel for
appellant that Dr. Judy Hanley, director of the
Children’s Advocacy Center, where the interviews
had taken place, had taken notes during the meeting.
Counsel for appellant subsequently contacted Dr.
Hanley, who informed counsel that she had taken
notes but had given them to the Commonwealth and
did not keep a copy.
On April 28, 2016, during a scheduling hearing,
counsel for appellant informed the court about the
meeting and noted that after interviewing the
children, the Commonwealth had turned over new
statements made by J.C. that contradicted earlier
statements the child had made. Counsel stated that
Z.C. had also been making inconsistent statements to
other interviewers, “[s]o there has got to be
discrepancies there as far as [Z.C.] is concerned.”
Counsel also stated that V.C.’s account had been
consistent and that he did not know if the child had
said something different in the meeting, but that he

85a
was “sure that the Commonwealth would have given
us that discrepancy statement if that’s the case.”
Counsel for appellant asked the court to compel
the Commonwealth to turn over the notes, or, in the
alternative, to review the notes in camera, arguing
that the notes could contain Brady material and that
it was important for the defense to have the “context”
surrounding the statements. The Commonwealth’s
attorney responded that the meeting was for witness
preparation, not for investigation, and that the notes
were attorney-work product. She stated that she had
provided appellant’s counsel with the inconsistent
statements, which was all the information she was
required to turn over.
The court ordered the
Commonwealth to review the notes in its possession
and “comply with Brady consistent with everything
you’ve been put on notice to do today,” but did not
order that the notes be provided to appellant’s
counsel. The court also declined to review the notes
in camera.
At trial, after the conclusion of the
Commonwealth’s direct examination of J.C., counsel
for appellant informed the court that he had not been
aware of some new statements J.C. had made during
his testimony. He noted that this was the reason he
was seeking the notes from Dr. Hanley and again
asked the court to compel the Commonwealth to turn
the notes over to counsel. The Commonwealth
responded that J.C.’s statements were a result of new
questions and were not inconsistent with his prior
statements.
The court denied appellant’s motion. Counsel
for appellant asked the court to make Dr. Hanley’s

86a
notes a part of the record. The court took appellant’s
motion under advisement.
Following trial, the court granted appellant’s
motion to make Dr. Hanley’s notes regarding J.C. a
part of the record. Appellant filed a further motion to
also include in the record Dr. Hanley’s notes
regarding Z.C. and V.C. The court granted the motion
39
as to Z.C. but denied it as to V.C.
Discussion
Appellant argues that the trial court erred by
not reviewing Dr. Hanley’s notes in camera to
determine whether they contained exculpatory
40
evidence.
“Where the Commonwealth and the defendant
dispute the exculpatory nature of . . . evidentiary
materials, the trial court may conduct an in camera
review of the material to resolve the dispute.” Currie,
30 Va. App. at 68. “The trial court’s determination of
the question whether it should undertake the review
of the disputed material is a discretionary matter.
The court’s reasoning for denying the motion related
to V.C. was that appellant had made motions for the production
of Hanley’s notes of the interviews of “the children,” but had not
specifically requested production of the notes of V.C.’s interview.
39

40 Appellant also argues that the court erred in not
ordering Hanley’s notes pertaining to V.C. to be made a part of
the record. However, the notes from V.C.’s interview are
included in the sealed document containing the notes from J.C.’s
and Z.C.’s interviews. Assuming arguendo that the court erred
in not ordering the notes pertaining to V.C. to be made a part of
the record, those notes have in fact been included in the record,
and thus there remains no error to be addressed by this Court.

87a
Whether that discretion was properly exercised will
depend on the specific factors of each case.” Bowman
v. Commonwealth, 248 Va. 130, 135 (1994). Among
such factors are “the reasons given by the defense in
justifying access to the disputed material, the time of
the request, or the amount of material involved.” Id.
at 135-36. Mere possibility or speculation that the
evidence sought “might contain ‘potentially
exculpatory evidence’ imposes neither a duty of
disclosure upon the Commonwealth, nor a duty of
inspection in camera by the court.” Ramdass v.
Commonwealth, 246 Va. 413, 420 (1993) (citation
omitted), vacated and remanded on other grounds,
512 U.S. 1217, original judgment adhered to on
remand, 248 Va. 518, 521 (1994).
Appellant contends that the inconsistent
statements summarized by the Commonwealth’s
disclosure provided a legitimate basis for his belief
that Dr. Hanley’s notes contained additional
exculpatory evidence under Brady. We disagree and
find that the trial court properly exercised its
discretion in declining to review Dr. Hanley’s notes in
camera.
Here, appellant presented the trial court with
no evidence beyond mere speculation that the notes
contained any additional inconsistent statements
41
made by either J.C. or Z.C. The speculative nature

Further, having reviewed Dr. Hanley’s notes included
in the record on appeal, it is evident that these notes do not
include any potentially exculpatory information regarding the
testimony of J.C. and Z.C. The notes themselves are Dr.
Hanley’s account of the children’s conversations with the
Commonwealth’s attorneys. The notes do not reveal any further
41

88a
of appellant’s argument is especially evident in light
of the fact that the Commonwealth promptly complied
with its Brady obligations by providing counsel with
the inconsistent statements made by J.C. during the
child’s interview. Appellant’s argument that the notes
might have contained additional inconsistencies
simply because the Commonwealth disclosed other
specific inconsistencies does not rise to a level above
mere speculation, therefore we find that the court had
42
no duty to review the notes in camera. See United
States v. Savage, 885 F.3d 212, 222 (4th Cir. 2018)
(concluding that in camera review was not required
where the defendant’s only assertion was that further
inconsistent statements “might exist” in a
prosecutor’s personal notes from the prosecution’s
meetings with a witness who had made prior
inconsistent statements).

inconsistent statements made by J.C. or Z.C. and include
nothing else that could be considered potentially exculpatory.
Appellant also argues that the trial court abused its
discretion by not reviewing the notes in camera because the
notes themselves were less than ten pages in length, and
therefore the review by the court would not have been
burdensome. As stated in Bowman, one of the factors to consider
in determining whether a court properly exercised its discretion
in deciding whether to review disputed material is “the amount
of material involved.” 248 Va. at 136. However, this is simply
one factor to consider and is not dispositive of the question of
whether a court has abused its discretion in declining to review
disputed material in camera. While the notes at issue here are
short in length, appellant could not provide any basis beyond
mere speculation for the court to review the material, and its
length alone cannot transform the material into evidence
requiring review by the court.
42

89a
III. CONCLUSION
For the foregoing reasons, we affirm appellant’s
convictions.
Affirmed.

90a
ENTERED DECEMBER 30, 2016
SENTENCING ORDER
VIRGINIA: IN THE CIRCUIT
COURT OF LOUDOUN COUNTY
FEDERAL INFORMATION PROCESSING
STANDARDS CODE: 197
Hearing Date: December 9, 2016
Judge: STEPHEN E. SINCAVAGE
COMMONWEALTH OF VIRGINIA
v.

Criminal No. 26450-00, -01 & -02

BRAULIO MARCELO CASTILLO
This case came before the Court for sentencing
of the defendant, who was present in the custody of a
Deputy Sheriff, and also came his attorney, Peter
Greenspun, Muhammad Elsayed and Allison
Noll. The Commonwealth was represented by Nicole
Wittman, Chief Deputy Commonwealth Attorney
and Alejandra Rueda, a Deputy Commonwealth
Attorney’s.
Consistent with the jury finding that was
returned against the defendant in this case on June
20, 2016, the Court finds the defendant guilty of the
following offenses:

91a
CASE
OFFENSE
NUMBER DESCRIPTION
AND
INDICATOR
(F/M)
26450-00 first degree
murder (felony)
26450-01 break and enter
with intent To
commit murder
(felony)
26450-02 violation of
protective order
(misdemeanor)

OFFENSE VA. CODE
DATE
SECTION

03/19/2014 §18.2-32
03/19/2014 §18.2-90

03/19/2014 §16.1-253.2

The pre-sentence report was considered and is
ordered filed as a part of the record in this case in
accordance with the provisions of Code§ 19.2-299.
Pursuant to the provisions of Code § 19.2298.01, the Court has considered and reviewed the
applicable discretionary sentencing guidelines and
the guidelines worksheets. The sentencing guidelines
worksheets and the written explanation of any
departure from the guidelines are ordered filed as a
part of the record in this case.
Before pronouncing the sentence, the Court
inquired if the defendant desired to make a statement
and if the defendant desired to advance any reason
why judgment should not be pronounced.

92a
In accordance with the recommendation of the
Jury, the Court SENTENCES the defendant to:
Incarceration in the Department of
Corrections for a period of Imprisonment for
Life for the conviction of First Degree Murder.
Incarceration in the Department of
Corrections for a period of fifteen (15) years for
the conviction of break and enter with intent to
commit murder.
Confinement in Jail for 12 months for the
conviction of violation of a protective order.
Said sentences shall run consecutively
with each other.
CREDIT FOR TIME SERVED: The defendant shall
be given credit for time spent in confinement while
awaiting trial pursuant to Virginia Code § 53.1-187.
In addition, Pursuant to section § 19.2-310.2
and § 19.2-310.3 the Defendant is ORDERED to
cooperate fully and promptly in providing information
and permitting fingerprinting and/or sampling of
blood, saliva and/or tissue as required by this Order;
Thereupon, the Court entered and the Defendant
endorsed the Order for DNA Analysis to be taken, and
the Clerk provided a copy of the Order to the Loudoun
County Adult Detention Center.

93a
It is further ORDERED that the defendant
shall pay the costs of these proceedings and
understands that Court costs and fines shall bear
interest from the date of the conviction at the legal
rate of interest applicable to judgments.
The Court advised the Defendant of his right to
appeal from this case, including the right to have an
attorney appointed for him.
And the defendant is remanded to the custody
of the Sheriff.
30 December 2016
DATE
ENTER:
/s/
STEPHEN E. SINCAVAGE, JUDGE
DEFENDANT INDENTIFICATION:
Alias: None Known
SSN: XXX-XX-0244
DOB: XX/XX/1966 Sex: M
SENTENCING SUMMARY:
TOTAL SENTENCE IMPOSED: Life in Prison,
fifteen (15) years and twelve (12) months
TOTAL TIME TO SERVE: Life in Prison, fifteen
(15) years and twelve (12) months

94a
ENTERED: APRIL 8, 2016
VIRGINIA: IN THE CIRCUIT
COURT OF LOUDOUN COUNTY
COMMONWEALTH OF VIRGINIA
v.

CRIMINAL NO. 26450-00, -01 & -02

BRAULIO MARCELO CASTILLO
Social Security Number: XXX-XX-0244
Date of Birth: XX/XX/1966
Hearing Date: 6 APRIL, 2016
Judge: STEPHEN E. SINCAVAGE
Attorney for the Commonwealth: Nicole Wittmann,
Chief Deputy Commonwealth's Attorney and
Alejandra Rueda, a Deputy Commonwealth's
Attorney
Attorney for Defendant: Peter Greenspun and
Jonathan Shapiro - Retained
Original Charge Description: Count One (1) - First
Degree Murder (felony), Count Two (2) - Breaking and
Entering with Intent to Commit Murder (felony) and
Count Three (3)- Violation of Protective Order
(misdemeanor)
Statute/Ordinance Violation Charged: Count One (1)§18.2-32 of the Code of Virginia, Count Two (2) §18.2-90 of the Code of Virginia and Count Three (3) §16.1-253.2 of the Code of Virginia
Alleged Offense Date: March 19, 2014 to March 20,
2014

95a
ORDER
On the above date came Nicole Wittmann,
Chief Deputy Commonwealth's Attorney and
Alejandra Rueda, a Deputy Commonwealth's
Attorney and Peter Greenspun and Jonathan
Shapiro, counsels for the Defendant. The Defendant,
BRAULIO MARCELO CASTILLO, who stands
charged in an indictment with the felonies and
misdemeanor described above, was present as a
condition of his bond.
This case on this day for the following
Commonwealth’s Motion to Preclude the Defense
from Mentioning The Defendant's Pre-Trial Status,
Motion For Use of Two-Way Closed Circuit
Television, and Motion in Limine, which motions are
opposed by the Defendant.
In regards to the Defendant’s Motion for Order
Allowing Jury Questionnaire and Individual or Small
Panel Voir Dire, which the Court had previously
taken under advisement the Court, gave the following
ruling: The Commonwealth and defense agreed and
the Court ruled that four (4) alternate jurors will be
selected, necessitating that twenty-eight (28) jurors
free from exception be selected, and that each side will
exercise six (6) peremptory strikes for a panel of
sixteen (16) which will sit to hear the trial. The
motion allowing the mailing of questionnaires to
prospective jurors is denied. The Court ruled that
there will be a limited questionnaire to be given in
Court about pre-trial publicity and outlined the
procedure for that process. See attachment A for the
form of the Questionnaire. The Court ruled that voir

96a
dire will be conducted initially in panels often (10),
but may be decreased or increased in the Court's
discretion. The Court will continue the Voir Dire
process until there are twenty-eight (28) jurors or
more free from exception.
Upon conclusion of all evidence and argument
in regards to the Defendant’s Motion to Preclude the
Defense from Mentioning The Defendant's Pre-Trial
Status the Court Orders that there is to be no mention
of such information in Voir Dire and opening
statements and that if the Defendant intends to elicit
such information counsel are directed to approach the
Court outside the presence of the jury to allow the
Court to rule on its admissibility.
Upon conclusion of all evidence and argument
in regards to the Defendant’s Motion For Use of TwoWay Closed Circuit Television, the Court determined
that the Commonwealth has met the standard under
the § 18 .2-67. 9 but the Court defers further ruling
until the Commonwealth demonstrates to the Court
how the procedure to use two-way closed circuit
television will work.
Upon conclusion of all evidence and argument
in regards to the Commonwealth’s Motion in Limine,
in regards to precluding the defense from questioning
the jury panel during voir dire about the range of
punishment that may be imposed upon the Defendant
the Court grants the Motion. In regards to
permitting Stephanie and David Meeker, as well as
Nicholas Castillo, to sit through the entire trial
pursuant to the provisions of Virginia Code Sections
19.2-11.01 and 19.2-265.01 the Court grants the

97a
motion in part and denies the motion in part. The
Court ruled that during the guilt phase of the trial
neither Stephanie Meeker nor David Meeker, nor
Nicholas Castillo may remain in the Courtroom until
he or she is released as a witness in the guilt phase of
the trial. If there is a necessity for a punishment
phase then neither Stephanie Meeker nor David
Meeker, nor Nicholas Castillo would be disqualified
from testifying in the punishment phase of the trial
solely for the reason of electing to be present in the
Courtroom after being released as a witness in the
guilt phase.
It is ORDERED that this case is continued to
April 12, 2016 at 10:00 a.m. for the Defendant’s ExParte Motion and the Defendant is Ordered to be
present at that time.
It is further ORDERED that this case is set to
April 28, 2016 at 2:00 p.m. for the Commonwealth's
demonstration of the procedure for the two-way closed
circuit television and the Defendant is Ordered to be
present at that time.
And the Defendant is continued at liberty on
bond.
The Clerk is directed to forward a copy of this
Order, forthwith, to the Office of the Commonwealth's
Attorney and to Peter Greenspun.
8 April 2016
DATE

98a
ENTER:
/s/
STEPHEN E. SINCAVAGE, JUDGE
Attachment A to
Order of / /16.
Com v. Castillo 25450
PANEL MEMBER (LAST NAME) ________________
(FIRST NAME) _________________________________
YOU HAVE BEEN INSTRUCTED THAT THE
COMMONWEALTH OF VIRGINIA HAS ALLEGED
THAT THE DEFENDANT, BRAULIO CASTILLO,
ON OR ABOUT MARCH 19 TO MARCH 20, 2014
COMMITTED THE CRIMES OF FIRST DEGREE
MURDER OF MICHELLE CASTILLO, HIS WIFE;
BREAKING AND ENTERING WITH INTENT TO
COMMIT MURDER, AND VIOLATION OF A
PROTECTIVE ORDER. YOU HAVE BEEN
INSTRUCTED THAT MR. CASTILLO HAS PLED
NOT GUILTY TO THE CHARGES.
THE BODY OF MICHELLE CASTILLO WAS
FOUND IN HER HOME IN ASHBURN, VIRGINIA
ON MARCH 20, 2014.
A. HAVE YOU READ, SEEN, OR HEARD
ANYTHING ABOUT THIS CASE? _______________
B. IF SO, WHAT DO YOU RECALL HAVING READ,
SEEN, OR HEARD? ____________________________
C.
WHERE
DID
INFORMATION?

YOU

LEARN

THIS

99a
RADIO ________________________________________
TELEVISION __________________________________
NEWSPAPERS _________________________________
INTERNET ____________________________________
SOCIAL MEDIA ________________________________
ANOTHER PERSON (E.G. FRIEND, FAMILY
MEMBER, CO-WORKER) _______________________
OTHER {PLEASE DESCRIBE) __________________

100a
ENTERED AUGUST 5, 2020
VIRGINIA:
In the Supreme Court of Virginia held at
the Supreme Court Building in the City of
Richmond on Wednesday the 5th day of August,
2020.
Braulio M. Castillo,
against

Appellant,

Record No. 191028
Court of Appeals No. 0140-17-4

Commonwealth of Virginia,

Appellee.

Upon a Petition for Rehearing
On consideration of the petition of the
appellant to set aside the judgment rendered herein
on February 27, 2020 and grant a rehearing thereof,
the prayer of the said petition is denied.
Justice Chafin took no part in the resolution of
the petition.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By::
Deputy Clerk

101a
§ 18.2-67.9. Testimony by child victims and
witnesses
using
two-way
closed-circuit
television.
A. The provisions of this section shall apply to an
alleged victim who was fourteen years of age or under
at the time of the alleged offense and is sixteen or
under at the time of the trial and to a witness who is
fourteen years of age or under at the time of the trial.
In any criminal proceeding, including preliminary
hearings, involving an alleged offense against a child,
relating to a violation of the laws pertaining to
kidnapping (§ 18.2-47 et seq.), criminal sexual assault
(§ 18.2-61 et seq.) or family offenses pursuant to
Article 4 (§ 18.2-362 et seq.) of Chapter 8 of Title 18.2,
or involving an alleged murder of a person of any age,
the attorney for the Commonwealth or the defendant
may apply for an order from the court that the
testimony of the alleged victim or a child witness be
taken in a room outside the courtroom and be
televised by two-way closed-circuit television. The
party seeking such order shall apply for the order at
least seven days before the trial date or at least seven
days before such other preliminary proceeding to
which the order is to apply.
B. The court may order that the testimony of the child
be taken by closed-circuit television as provided in
subsection A if it finds that the child is unavailable to
testify in open court in the presence of the defendant,
the jury, the judge, and the public, for any of the
following reasons:
1. The child's persistent refusal to testify despite
judicial requests to do so;

102a
2. The child's substantial inability to communicate
about the offense; or
3. The substantial likelihood, based upon expert
opinion testimony, that the child will suffer severe
emotional trauma from so testifying.
Any ruling on the child's unavailability under this
subsection shall be supported by the court with
findings on the record or with written findings in a
court not of record.
C. In any proceeding in which closed-circuit television
is used to receive testimony, the attorney for the
Commonwealth and the defendant's attorney shall be
present in the room with the child, and the child shall
be subject to direct and cross-examination. The only
other persons allowed to be present in the room with
the child during his testimony shall be those persons
necessary to operate the closed-circuit equipment,
and any other person whose presence is determined
by the court to be necessary to the welfare and wellbeing of the child.
D. The child's testimony shall be transmitted by
closed-circuit television into the courtroom for the
defendant, jury, judge and public to view. The
defendant shall be provided with a means of private,
contemporaneous communication with his attorney
during the testimony.
E. Notwithstanding any other provision of law, none
of the cost of the two-way closed-circuit television
shall be assessed against the defendant.

